<html>
<title> - U.S.-JAPAN RELATIONS: ENDURING TIES, RECENT DEVELOPMENTS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
        U.S.-JAPAN RELATIONS: ENDURING TIES, RECENT DEVELOPMENTS

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON ASIA, THE PACIFIC AND
                         THE GLOBAL ENVIRONMENT

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 17, 2010

                               __________

                           Serial No. 111-116

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______




                  U.S. GOVERNMENT PRINTING OFFICE
55-515                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c8afb8a788abbdbbbca0ada4b8e6aba7a5e6">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ELIOT L. ENGEL, New York             DONALD A. MANZULLO, Illinois
BILL DELAHUNT, Massachusetts         EDWARD R. ROYCE, California
GREGORY W. MEEKS, New York           RON PAUL, Texas
DIANE E. WATSON, California          JEFF FLAKE, Arizona
RUSS CARNAHAN, Missouri              MIKE PENCE, Indiana
ALBIO SIRES, New Jersey              JOE WILSON, South Carolina
GERALD E. CONNOLLY, Virginia         JOHN BOOZMAN, Arkansas
MICHAEL E. McMAHON, New York         J. GRESHAM BARRETT, South Carolina
JOHN S. TANNER, Tennessee            CONNIE MACK, Florida
GENE GREEN, Texas                    JEFF FORTENBERRY, Nebraska
LYNN WOOLSEY, California             MICHAEL T. McCAUL, Texas
SHEILA JACKSON LEE, Texas            TED POE, Texas
BARBARA LEE, California              BOB INGLIS, South Carolina
SHELLEY BERKLEY, Nevada              GUS BILIRAKIS, Florida
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
VACANT<greek-l>Until 5/5/10 deg.
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

      Subcommittee on Asia, the Pacific and the Global Environment

            ENI F.H. FALEOMAVAEGA, American Samoa, Chairman
GARY L. ACKERMAN, New York           DONALD A. MANZULLO, Illinois
DIANE E. WATSON, California          BOB INGLIS, South Carolina
MIKE ROSS, Arkansas                  DANA ROHRABACHER, California
BRAD SHERMAN, California             EDWARD R. ROYCE, California
ELIOT L. ENGEL, New York             JEFF FLAKE, Arizona
GREGORY W. MEEKS, New York


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Joseph R. Donovan, Jr., Principal Deputy Assistant Secretary, 
  Bureau of East Asian and Pacific Affairs, U.S. Department of 
  State..........................................................    14
Mr. Michael Schiffer, Deputy Assistant Secretary of Defense for 
  Asian & Pacific, Security Affairs (East Asia), U.S. Department 
  of Defense.....................................................    23
Sheila A. Smith, Ph.D., Senior Fellow for Japan Studies, Council 
  on Foreign Relations...........................................    49
Michael Auslin, Ph.D., Director of Japan Studies, The American 
  Enterprise Institute...........................................    62

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Eni F.H. Faleomavaega, a Representative in Congress 
  from American Samoa, and Chairman, Subcommittee on Asia, the 
  Pacific and the Global Environment: Prepared statement.........     4
The Honorable Donald A. Manzullo, a Representative in Congress 
  from the State of Illinois: Prepared statement.................     8
The Honorable Diane E. Watson, a Representative in Congress from 
  the State of California: Prepared statement....................    13
Mr. Joseph R. Donovan, Jr.: Prepared statement...................    17
Mr. Michael Schiffer: Prepared statement.........................    26
Sheila A. Smith, Ph.D.: Prepared statement.......................    54
Michael Auslin, Ph.D.: Prepared statement........................    64

                                APPENDIX

Hearing notice...................................................    78
Hearing minutes..................................................    79
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey: Statement/questions..............    80


        U.S.-JAPAN RELATIONS: ENDURING TIES, RECENT DEVELOPMENTS

                              ----------                              


                       WEDNESDAY, MARCH 17, 2010

              House of Representatives,    
              Subcommittee on Asia, the Pacific    
                            and the Global Environment,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:41 p.m. in 
room 2172, Rayburn House Office Building, the Honorable Eni F. 
H. Faleomavaega, (chairman of the subcommittee) presiding.
    Mr. Faleomavaega. The subcommittee will come to order. My 
apologies to our witnesses for being a little late this 
afternoon, but we do welcome them. And without any objection, 
all the statements of our witnesses will be made part of the 
record.
    I will begin by giving my opening statement. Then my good 
friend, the ranking member of our subcommittee, Mr. Manzullo, 
will give his opening statement, and then we will proceed from 
there.
    This is a hearing on United States-Japan relations. I 
believe this is the first time that we have had the hearing. 
Hopefully there will be more to come.
    This year marks the 50th anniversary of the signing of the 
Treaty of Mutual Cooperation and Security between Japan and the 
United States. That treaty forms the bedrock of our bilateral 
relationship, which in turn plays an indispensable role in 
ensuring security and prosperity for the United States and 
Japan as well as the broader Asia-Pacific region and throughout 
the world. As Article 6 of the treaty notes, one of its major 
purposes is to ``contribute to the maintenance of international 
peace and security in the Far East.''
    The advent of new governments in both countries offers us a 
unique opportunity to expand and invigorate both the security 
alliance and our close economic, diplomatic and political ties 
in the face of new regional and global challenges. Our two 
government witnesses today are involved in senior-level 
discussions with their Japanese counterparts on deepening and 
expanding the alliance to encompass greater cooperation in 
disaster relief, humanitarian assistance, climate change, cyber 
security, terrorism, proliferation of weapons of mass 
destruction and other issues. In this important dialogue both 
sides are guided by a shared respect for democracy and freedom, 
by a mutual interest in successfully adapting to the 
realignment of the region's great powers and by the enduring 
ties we have forged over the last 65 years.
    Clearly, we have encountered some difficulties in relations 
since the election of the Democratic Party of Japan last 
August. But we should be mindful that the Democratic Party of 
Japan never governed previously, as with one brief 
interruption, the Liberal Democratic Party ruled Japan for more 
than half a century.
    As those of us in Washington should be acutely aware, 
getting a new administration up to speed can take time. More to 
the point, most of the issues on which the press has reported 
so breathlessly are relatively minor when viewed in the context 
of the breadth and depth of our bilateral relationship. The 
fact that certain Toyota models sometimes accelerate 
unexpectedly is a mechanical problem, not a diplomatic issue. 
And last week's acknowledgment by Japan's foreign minister of 
the existence of secret cold war agreements was a welcome 
fulfillment of the Democratic Party of Japan's campaign pledge 
to promote greater governmental transparency. In my opinion, 
secret agreements that would allow military operations by U.S. 
forces based in Japan in case of an emergency on the Korean 
Peninsula, and to have Tokyo spend some $20 million to help 
restore former U.S. military areas in Okinawa to farmland 
should have been made public decades ago.
    The more problematic secret agreement that gave tacit 
permission for U.S. nuclear-armed warships to make calls at 
Japanese ports and transit through Japanese territorial 
waters--which would appear to have contravened Japan's three 
non-nuclear principles not to make, own or allow entry of 
nuclear weapons--was made public decades ago. Edwin Reischauer, 
our Ambassador to Japan in the mid-1960s, discussed those port 
calls in an open press conference in 1980. Ten years later, 
President Bush, Bush 41, announced the withdrawal of tactical 
nuclear weapons from U.S. naval ships, rendering the secret 
pact moot.
    I believe both the United States and Japan should welcome 
Tokyo's new willingness to acknowledge historical truths and 
indeed encourage the Hatoyama government to do so in other 
areas.
    In any case, the most significant issue between our two 
countries is Japan's decision to reexamine the agreement to 
relocate the U.S. Marine Corps Air Station from Futenma to a 
less populated part of Okinawa.
    Two months ago I signed a letter with the chairman and 
ranking members of the House Foreign Affairs and Armed Services 
Committees expressing our continued support for the Guam 
International Agreement of February 2009. In our view any 
concerns regarding the Futenma Replacement Facility should be 
addressed through that accord.
    As the agreement notes, it is the intent of both parties to 
reduce the burden on local communities, including those in 
Okinawa, thereby providing the basis for enhanced public 
support for the security alliance. It further states, and I 
quote,

        ``The relocation of some 8,000 marines and their 9,000 
        dependents from Okinawa to Guam shall be dependent on 
        tangible progress made by the Government of Japan 
        toward completion of the Futenma Replacement Facility 
        as stipulated in the United States-Japan road map for 
        realignment implementation of 2006.''

    I believe all of us who signed the letter recognized that 
during the campaign, the Democratic Party of Japan pledged to 
review the base issue. And since the Social Democratic Party, 
one of the Democratic Party's coalition partners, adamantly 
opposes the existing relocation plans and insists that the base 
be moved outside of Japan. The decision by the Prime Minister 
to put the realignment process on hold after taking office 
should not have come as a surprise.
    After the January Nago mayoral election resulting in the 
victory of a first-time candidate opposed to the planned 
relocation, the Okinawa Prefectural Assembly's unanimous 
approval of a written statement demanding that the base be 
moved outside the prefecture. The governor of Okinawa's recent 
hints that he may take a similar position when he campaigns for 
reelection later this year--the issue has clearly become more 
volatile locally.
    The burdens the Okinawan people have shouldered on behalf 
of the alliance should not be underestimated. With less than 1 
percent of Japan's land area, Okinawa is host to two-thirds of 
the American forces based in Japan. We should also remember 
that Okinawa was the sovereign Ryuku Kingdom until it was 
foreceably annexed by Japan in 1872, and that during the battle 
of Okinawa, one-third of its inhabitants died. To this day 
Okinawa remains a vestige of imperialism as it languishes 
behind the rest of the country economically and educationally, 
and its people face discrimination throughout Japan.
    In dealing with the Futenma relocation issue, we must not 
neglect this history. Politically we must also recognize that 
Prime Minister Hatoyama's approval ratings have deteriorated 
steeply from almost 80 percent when he took office to somewhere 
between 30 to 40 percent now, largely as a result of financial 
scandals and uneven leadership. Even worse for the Democratic 
Party of Japan, only one-quarter of voters say they plan to 
cast their ballots for the party in July's Upper House 
elections.
    At the same time we must not lose sight of the strategic 
importance of United States-Japan alliance or allow the Futenma 
issue to define the bilateral relationship. Japan remains 
America's most important ally in the Asia-Pacific. Japan is the 
world's second largest economy if one uses an alternative 
metric system. Just a few weeks ago it is my understanding that 
Japan has regained its position as the largest holder of 
American treasuries, now somewhere around $769 billion to 
China's $755 billion. Japan shares our democratic values and 
our interest in a prosperous, peaceful, stable and sustainable 
world. The United States-Japan alliance should and will remain 
a pivotal strength for both of our countries so long as we 
address the issues of the day with patience, persistence, 
flexibility, and understanding between both countries.
    That ends my opening statement, and I would now like to 
turn the time over to my good friend, our ranking member, for 
his opening statement.
    [The prepared statement of Mr. Faleomavaega 
follows:]<greek-l>Faleomavaega statement deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Manzullo. Thank you, Mr. Chairman, for calling this 
important hearing concerning the critical relationship between 
the United States and Japan. I want to underscore my deep 
appreciation for this longstanding friendship and alliance that 
we share with Japan where I had the opportunity a few years ago 
to visit Nagoya, went to the Toyota factory there, the 
Mitsubishi rocket factory, and got to ride the bullet train 
from Nagoya to Tokyo and I got to sit right up in front. It was 
almost like a video game. Mr. Chairman, you ought to try that 
sometime. I wasn't at the controls, I want to let you know 
that.
    Mr. Faleomavaega. If the gentleman would yield, I did ride 
the bullet train, and the fact of the matter is Japan is about 
100 years in advance as far as mass transit systems compared to 
ours. They were able to have trains that could go up to speeds 
of 125 miles an hour some 50 years ago. And what are we doing? 
We haven't solved our own mass transit system. Thank you.
    Mr. Manzullo. I am delighted to announce that Ambassador 
Fujisaki of Japan has graciously agreed to visit Rockford 
College, which is located in the northwest Illinois 
congressional district that I have the honor to represent. This 
will be the second time that Japan's chief envoy to the United 
States has traveled to Illinois; the first was in 2007, the 
former Ambassador Kato, we presented him with a Cubs jacket, 
and he went on to graduate from diplomatic service and is in 
charge of major league baseball in Japan. He must have got a 
good background here in the United States, huh, Chairman?
    Thus, I want to publicly thank the good folks of Japan for 
sending such able and distinguished scholars and statesmen, 
such as Ambassador Fujisaki and Kato to America. Their 
contributions to the relationship between our two countries 
cannot be overstated.
    Our congressional district has a lot of thanks to give to 
the good folks in Japan. Union Specialties in Union, Illinois, 
is the last manufacturing of sewing machines in this country, 
and who came along to pick up the pieces and keep it going but 
the Japanese with direct foreign investment, and when two 
fellows from the United States decided to make Japanese rice 
crackers in the United States, they soon realized that they had 
to have direct Tokyo influence, and Mitsubishi factories now 
own in Rockford, Illinois, TD Foods, which is the only domestic 
manufacturer of delicious Japanese rice crackers. So the 
Japanese foreign direct investment is responsible for Nissan 
Forklift in Maringo, Illinois, thus we have a very, very close 
working relationship with the Japanese, and we are very much 
appreciative of their investment in our congressional district, 
their tireless and effortless willingness to stay involved in 
manufacturing, and we are very much indebted to the Japanese 
people and continue to draw closer and closer relationships 
with our direct investment in Japan and vice-versa.
    So we look forward to even stronger ties as we get through 
these challenges regarding Okinawa. Both sides are very mature 
at our diplomatic relations. We have a lot of respect for each 
other, and we will obviously work through it.
    So, Mr. Chairman, thank you for calling this meeting and I 
look forward to the testimony.
    [The prepared statement of Mr. Manzullo 
follows:]<greek-l>Manzullo statement deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Faleomavaega. I thank my good friend for his statement. 
The gentleman from California has an opening statement.
    Mr. Royce. Thank you, Mr. Chairman. Thank you for calling 
this important hearing, and I thank our witnesses for 
attending.
    There has been a lot of coverage in the press lately about 
U.S.-Japanese disputes, but when you look at the depth of the 
partnership that exists between the United States and Japan, I 
think it is one that transcends parties. It is certainly one 
that transcends personalities. We are the two largest economies 
in the world, and our security alliance has lasted for 50 
years. The alliance has been a force for stability in a very 
tough neighborhood, but there is cause for concern.
    Japan's Government is inexperienced. Some Japanese leaders 
would like to see Tokyo tilt more toward Beijing. The dispute 
over the relocation of U.S. Marines on Okinawa has been badly 
handled. I think most Japanese would agree with that statement. 
There is a threat that this issue could spill into the 
functional operations of our alliance, but this is not just an 
issue for U.S.-Japan relations. Our alliance provides the 
oxygen for many in the region. It is part of the security 
network throughout East Asia. U.S. allies Singapore, Australia, 
South Korea, the Philippines, are all concerned. The good news 
is that the Japanese public maintains its support for United 
States-Japan alliance at about 75 percent. However, about two-
thirds of the Japanese think that the alliance has been poorly 
handled by the new government.
    The U.S. security guarantee in Asia has allowed the 
region's countries to link themselves together, not with 
military pacts, but with trade. We provide the stability for 
free trade to flow, yet we are on the sidelines when it comes 
to trade in the region. As I noted the other week with 
Assistant Secretary Campbell, we are party to just two of the 
168 trade agreements in force in Asia. That is not nearly good 
enough.
    I would also just on another subject make the point that 
Japan's population, its density, its geography make it entirely 
different when discussing public transportation than with 
respect to the United States. We look at economic merit when 
addressing infrastructure or at least we should. The Japanese 
situation with respect to density makes the development of 
their public transit system there a very rational thing for 
Japan to have done.
    Thank you very much, Mr. Chairman, and I yield back.
    Mr. Faleomavaega. Thank you.
    The gentleman from California, Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you, Mr. Chairman, and it is vitally 
important that we reaffirm to both the people of Japan and the 
people of the United States that the relationship with Japan is 
of utmost importance to our future, and to the present--not 
just the future, but the present. Japan, to some degree, has 
been taken for granted by the people of the United States. It 
has been off our radar screen, and that is not good, and 
without this incredible partnership between Japan and the 
United States the history of the world would be a lot 
different. The history of the cold war certainly would have 
been a lot different, and it would have been more costly to 
contain communism, it would have been, frankly, the threat to 
the Western World would probably still have been upon that we 
faced 30 or 40 years ago.
    But the partnership with Japan enabled us to have a 
prosperous and a secure region of the world, and a partner that 
would be with us, maybe not by sending armed might, but be with 
us in every other way as we went into conflicts throughout the 
world.
    Well, as I say, unfortunately some Americans, because there 
wasn't a not of controversy at that time, just took that for 
granted. Well, unfortunately, I think a lot of people in Japan 
have taken America for granted the same way the Japanese were 
taken for granted by Americans, and that is, the people of 
Japan have to know that they will not have the peace and 
stability in their region, in their country, and the prosperity 
in their country without this continued close relationship with 
the United States. It will not happen--you know, somebody said 
that--I remember it was Ronald Reagan who said this first, I 
believe--that people take the air for granted because it is 
there, and they just think, well, let us just take that for 
granted. But if you cut off the air for even a millisecond, 
maybe within 30 seconds of cutting of somebody's air they 
realize how important that factor is.
    And I think that right now as Japanese-American relations 
are being reexamined and some strains that are very evident, 
that we must make sure that we do not take the air for granted. 
We do not take the reality, the wonderful reality we have had 
for 50 years that just happened, it didn't just happen, it 
happened because the dynamic was created between the Japanese 
people and the American people that led to that prosperity and 
peace and stability, and yes, freedom and democracy.
    This is the worse possible moment for our countries to be 
focusing on our differences rather than our similarities. This 
is the worst possible moment we have an emerging and ever 
stronger dictatorship in China that will, if it senses 
weakness, will become an offensive force in the region that 
will disrupt the stability and the prosperity that we have 
enjoyed.
    So, Mr. Chairman, we need to make sure that we have these 
kinds of hearings and reach out to our fellows in Japan because 
I believe that whether it is Okinawa or some of these other 
issues that are strained right now and that are questioned and 
are pulling at our relationship, those things are so minuscule 
in importance as compared to maintaining the overall alliance 
that we have had with Japan because, as I say, this is 
happening at the moment when China can become a huge threat to 
the status quo in a very negative way.
    Let me just make one note. We have territorial claims by 
China in the South China Sea that would put Japan at risk 
almost immediately. You cannot have Beijing having territorial 
control or that cannot be--cannot recognize that they have 
these rights that go right out into the sea without it having a 
severe impact on Japanese shipping lanes, and that is their 
lifeblood, and like our country, those shipping lanes are their 
lifeblood. So let us get on with the hearing, and again 
appreciate you bringing the issues up today.
    Mr. Faleomavaega. I thank the gentleman for his comments, 
and now I would like to turn the time over to my good friend, 
the gentlelady from California, Dr. Watson.
    Ms. Watson. Konbanwa. Thank you for holding this timely 
hearing about growing U.S.-Japan relations. The August 2009 
elections led to a landslide victory for the Democratic Party 
of Japan, and for the first time in nearly 50 years there is a 
change in the governing party in Japan.
    I lived in Okinawa in the early seventies as American 
teacher at Kadina Air Force Base, and at that time, of course, 
we were so compatible and we had our bases there where families 
chose to live after our military would be relocated. Some of 
them after retiring came back to live there because it was a 
wonderful environment, and that is how I remember Japan, 
Okinawa, Japan, now.
    And so I would hope that these kinds of hearings will keep 
us informed as how our relationships are, and I do know we, as 
Americans, do falter in the behavior of some of our people in 
various places around the world, but as my colleague just said, 
these are minuscule compared to the very strong and healthy 
relationships that we have had in the immediate aftermath of 
the second World War, and the time that I was in that part of 
the world.
    Now, the DPJ has slowly begun to alter Japanese foreign 
policy, choosing to better relationships with Japan's 
neighboring nations, and increasing the efficacy and 
transparency of their government. Though Japan's involving 
interactions with China and North Korea should be monitored, 
greater interaction among Asian nations will hopefully lead to 
a more stability in the region.
    The new DPJ government offers us an opportunity to expand 
our already strong relationship which we have had and the Asia-
Pacific region, and I know some people feel that our intent in 
many places in the world is to occupy. It is not to occupy. It 
is to remain partners and collaborators together as we retain 
the peace and help these nations grow, and I would say that 
Japan has grown to be a strong and important leader globally, 
and I would hope that as we continue our relationship there 
that we continue to strengthen our relationships with Japan and 
the other Asia-Pacific areas in that region.
    So thank you, Mr. Chairman, and I will yield back the 
remainder of my time.
    [The prepared statement of Ms. Watson 
follows:]<greek-l>Watson statement deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Faleomavaega. I thank the gentlelady for her comments, 
and I am sure all of us here as members of the subcommittee 
have had very positive experiences in dealing with this 
important ally, the country of Japan.
    We have with us this afternoon some very key witnesses. I 
deeply appreciate their taking the time from their busy 
schedules to come and testify before us. We have our principal 
deputy assistant secretary from the Bureau of East Asian and 
Pacific Affairs from the State Department, a Senior Foreign 
Officer, Mr. Joseph Donovan.
    Previous to his appointment as principal deputy assistant 
secretary, he served as counsel general in Hong Kong, and also 
held important points in our embassy in Tokyo as well as in 
Taiwan; political counselor as well as chief of military 
affairs in our embassy in Tokyo; also in Beijing, as well as in 
Kaohsuing in Taiwan.
    Deputy Assistant Secretary Donovan is a graduate of 
Georgetown University with a degree in foreign service, and 
also received his master's degree with distinction in national 
security affairs at the U.S. Naval Postgraduate School in 
Monterey.
    Also with us this afternoon is deputy assistant secretary 
of defense for Asian & Pacific affairs, Mr. Michael Schiffer. 
Before his appointment as the deputy assistant secretary of 
defense for East Asian & Pacific affairs, he was also with the 
Secretary of Defense in 2009 and was involved with the Stanley 
Foundation--I don't know what is the matter with my voice this 
afternoon. Secretary Schiffer also worked as a senior staff 
member for Diane Feinstein, and was senior advisor to Senator 
Feinstein on national security and legislative affairs. He was 
involved also in New York University where he received his--
well, his undergraduate studies at Georgetown University and 
has graduate degrees from the London School of Economics, and 
also New York University.
    We generally have a 5-minute rule, gentlemen, and give us 
all the good things, if you could share that with us so we 
could also have an opportunity to raise some questions.
    I am sorry, just one more delay. I would like to turn the 
time over to my friend from New Jersey, Mr. Smith, if he has an 
opening statement.
    Mr. Smith. Thank you very much, Mr. Chairman. If you don't 
mind, I will wait until questions, and I thank you for that 
courtesy.
    Mr. Faleomavaega. All right. Secretary Donovan.

   STATEMENT OF MR. JOSEPH R. DONOVAN, JR., PRINCIPAL DEPUTY 
ASSISTANT SECRETARY, BUREAU OF EAST ASIAN AND PACIFIC AFFAIRS, 
                    U.S. DEPARTMENT OF STATE

    Mr. Donovan. Thank you, Mr. Chairman, Mr. Manzullo, and 
members of the subcommittee. It is a privilege to appear before 
you today.
    As the chairman has just mentioned, in 2010, the United 
States and Japan are celebrating the 50th anniversary of our 
treaty of mutual cooperation and security, a historic milestone 
that is both an opportunity to reflect on the successes of the 
past half-century, and also an opportunity to look ahead.
    Today, Japan is among our most important trading partners 
and a staunch and important ally. We work together on a broad 
range of critical issues from the United Nations and the Six-
Party Talks to increasing regional economic integration, 
promoting democracy and human rights, climate change, nuclear 
nonproliferation and disarmament, and coordinating humanitarian 
assistance and disaster relief. Japan continues to be an 
increasingly active partner in global affairs and our bilateral 
and multilateral cooperation transcends the Asia-Pacific 
region.
    Japan is working with us and others on post-earthquake 
recovery in Haiti and Chile. It is a vital international 
supporter of reconstruction, reintegration and development in 
Afghanistan, and it is combatting piracy off the Horn of 
Africa.
    Like the United States, Japan experienced historic 
political change in the last year. At the end of August 2009 
Japan held an election for the Lower House of the Diet. In that 
election the Democratic Party of Japan won a dramatic victory, 
ending 55 years of almost unbroken rule by the Liberal 
Democratic Party.
    United States congratulated Japan on this historic election 
and joined the people of Japan in reaffirming the strong 
democratic tradition that we share. We also welcomed the 
opportunity to work with the new government in Tokyo on a broad 
range of global, regional, and bilateral issues. Since August, 
President Obama has met twice with Prime Minister Hatoyama. 
Secretary Clinton has met several times with her counterpart, 
Foreign Minister Okada, most recently, in January, in Hawaii.
    As President Clinton said in his Tokyo speech last 
November, United States-Japan alliance is not a historic relic 
from a bygone era, but it is an abiding commitment to each 
other that is fundamental to our shared security. For half a 
century, United States-Japan alliance has played an 
indispensable role in ensuring the security and prosperity of 
both United States and Japan as well as regional peace and 
stability, and we are committed to ensuring that it continues 
to be effective in meeting the challenges of the twenty-first 
century.
    Since the end of the cold war the United States and Japan 
have worked together to update our alliance through efforts 
ranging from the force posture realignment to the review of 
roles, missions and capabilities. The alliance has grown in 
scope with cooperation on everything from missile defense to 
information security.
    Through the Defense Policy Review Initiative, the United 
States and Japan have made a landmark alliance commitment to 
implement a coherent package of force posture realignments that 
will have far-reaching benefits for the alliance. These changes 
will help strengthen the flexibility and deterrent capability 
of U.S. forces while creating the conditions for more 
sustainable U.S. miliary presence in the region.
    The transformation includes the relocation of approximately 
8,000 marines from Okinawa to Guam, force posture relocations 
and land returns on Okinawa and other realignments and combined 
capability changes on mainland Japan. This realignment will 
strengthen both countries' ability to meet current 
responsibilities and create an alliance that is more flexible, 
capable, and better able to work together to address common 
security concerns.
    The Futenma Replacement Facility, a linchpin of the 
realignment road map, is currently being review by the new 
Japanese Government. The Government of Japan has stated that 
its review of the relocation issue will conclude by May. As 
Secretary Clinton has said, we are respectful of the Japanese 
Government's process, at the same time our position remains 
that in terms of both the security arrangements needed to 
protect Japan and fulfill our treaty commitments, and to limit 
the impact of bases on local communities, particularly on 
Okinawa, that the realignment road map presents the best way 
forward.
    Mr. Chairman, the United States and Japan together generate 
over a third of global output. We are global leaders and we are 
finding more and more that our engagement is global in scope as 
we tackle issues like energy security and climate change, 
protect intellectual property right, deepen and strengthen the 
Asia-Pacific economic community, and address critical 
development needs in Iraq, Afghanistan, Africa, and elsewhere.
    As important as our global economic relationship has 
become, we also need to continue our efforts to expand trade 
and investment between us. We continue to urge Japan to make 
meaningful market access commitments in the Doha development 
round negotiations. We are working hard to further open the 
Japanese market to U.S. beef, consistent with science and 
international standards, and to improve market access to U.S. 
automobiles.
    We are also pressing Japan to establish a level playing 
field between Japan post and private companies in the 
insurance, banking and express delivery sectors in accordance 
with Japan's international obligations.
    On December 11, 2009, we concluded a U.J.-Japan Open Skies 
Civil Aviation Agreement. Upon its entry into force, the new 
agreement will represent a market-oriented approach to civil 
aviation relations. Airlines, not governments, will decide 
which cities to serve the frequency of flights, the equipment 
used, and the prices charged.
    Japan today is playing an increasing active role in the 
world stage, aiding in reconstruction activities in Iraq and 
anti-piracy operations off the Horn of Africa. Active in 
Afghanistan's reconstruction since 2002 under its new 
government, Japan has become the second largest international 
contributor to Afghanistan. Japan also continues to provide 
strong leadership and encouraging additional international 
support for Pakistan. We welcome these efforts.
    We also are working to enhance our global cooperation on 
development efforts as well. Japan has been a strong supporter 
of the global nonproliferation regime, and last December in 
Copenhagen Japanese leadership played a vital role in helping 
the international community take a meaningful step toward 
addressing the global challenge of climate change.
    Japan and the United States have a great opportunity to 
advance regional prosperity during our back-to-back host years 
in 2010 and 2011, respectively. Together we are working with 
our APEC partners to build resilient economies by preparing the 
region for natural disasters, bolstering public health 
capabilities, and ensuring an abundant and affordable food 
supply.
    Whatever the challenges we may face in the next half-
century I am confident that our relationship with Japan will be 
an important element of our success. Our relation continues to 
develop and evolve, and continues to contribute to peace, 
prosperity and security throughout the region and the globe.
    Thank you very much for inviting me to testify and I look 
forward to your questions.
    [The prepared statement of Mr. Donovan 
follows:]<greek-l>Joseph Donovan deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Faleomavaega. Thank you, Secretary Donovan. Secretary 
Schiffer.

 STATEMENT OF MR. MICHAEL SCHIFFER, DEPUTY ASSISTANT SECRETARY 
 OF DEFENSE FOR ASIAN & PACIFIC, SECURITY AFFAIRS (EAST ASIA), 
                   U.S. DEPARTMENT OF DEFENSE

    Mr. Schiffer. Mr. Chairman, Mr. Manzullo, members of the 
subcommittee, thank you for the privilege of appearing before 
you today to discuss United States-Japan security relationship.
    The relationship between the United States and Japan has 
provided the foundation for peace, security, stability, and 
economic prosperity in the Asia-Pacific region for more than 60 
years. It is a relationship that has adapted an continues to 
evolve to address changes in the security environment, in our 
political systems, and in our respective capacities and 
capabilities.
    As has already been noted here t his afternoon, the 
alliance has been in the news recently in connection with the 
Government of Japan's decision to reevaluate the plans for the 
relocation of Marine Corps Air Station Futenma, the termination 
of Japan's Indian Ocean fueling operations and the so-called 
secret agreements, among other issues. These new stories have 
led to understandable concerns in certain quarters about the 
state of the relationship, but I think it is important to put 
these concerns in perspective in light of the much more 
difficult trials our alliance has endured in the past, emerging 
stronger each time; in light of the rich agenda of cooperation 
currently underway; and in light of the even more active agenda 
for deeper and broader cooperation that lies ahead.
    When we consider our partnership on such issues as missile 
defense, information security, extended deterrence, 
humanitarian assistance and disaster relief, to give just a few 
example, the foundation for an evermore robust alliance is 
clearly evident. For example, U.S. missile defense cooperation 
with Japan has become a central element in the defense 
relationship. Japan's investment in four BMD-capable Aegis 
destroyers and the upgrade of its Patriot battalions to pack-3 
capability represents a significant augmentation and 
strengthening of the missile defense capability that protects 
Japan and our forces stationed there.
    As part of the 50th anniversary agenda, this year we have 
begun a formal dialogue with the Japanese to address 
information and cyber security, space and ballistic missile 
defense, all of which are central strategic issues for the 
twenty-first century. We believe that it is critical to be able 
to hold confidential discussions with the Japanese Government 
on a range of sensitive strategic issues and we look forward to 
doing so.
    One additional area where we have seen an especially rich 
agenda for partnership is humanitarian assistance and disaster 
relief, peacekeeping operations and maritime security. Just 
this past month we agreed to start up a working group with 
Japan that will give particular focus to seeking bilateral 
agreement to enhance U.S.-Japanese cooperation and embody new 
operational initiatives in this area.
    In the here and now, however, public focus has been on the 
implementation of the 2006 bilateral realignment road map, 
specifically the relocation of the Futenma station. The Futenma 
Replacement Facility at Camp Swab is one component of a larger 
plan to consolidate the U.S. presence on Okinawa onto existing 
bases, and move away from the densely populated portion of the 
island. The Futenma realignment package will allow us to 
reposition more than 8,000 marines from Japan to Guam and 
return nearly 70 percent of land south of Kadina Air Base to 
the Okinawan people, all while addressing noise, safety, 
environmental concerns, and creating a lighter footprint and a 
much more sustainable presence for U.S. forces on Okinawa.
    For reasons you highlighted in your opening statement, Mr. 
Chairman, we believe these are important goals.
    Beyond the realignment road map and base-specific 
questions, however, I also think it is important to keep in 
mind the larger strategic issues in play. Futenma may be but 
one base in one part of a larger alliance relationship, but 
peace and stability in the region depend in no small part of 
the enduring presence of forward-deployed U.S. forces in Japan. 
The only readily deplorable U.S. ground forces between Hawaii 
and India are the U.S. Marines on Okinawa. The United States 
cannot meet its treaty obligation to defend Japan, cannot 
respond to humanitarian crisis or natural disaster, cannot meet 
its commitments for regional peace and stability without 
forward-deployed ground forces in Japan with the appropriate 
capabilities and training.
    In this broader context, the goal of the road map is to 
provide the alliance, not just the United States, not just 
Japan, but the alliance, Japan and the United States together, 
with the posture and the capabilities necessary to be able to 
meet our commitments in the defense of Japan, to respond to 
challenges in the region and around the globe, and to continue 
to underwrite peace, stability, and economic prosperity in the 
region for decades to come.
    The second issue I would like to briefly highlight today is 
the negotiations that we will soon undertake with Japan on host 
nation support.
    In addition to providing bases, Japan's host nation 
support, or HNS, is a strategic pillar of the alliance. We view 
HNS as a mutual investment in our commitment to regional 
stability. Japan provides financial and logistical support. The 
United States provides resources and manpower capabilities. 
Through HNS each side complements the other and together we 
create a robust alliance capacity. We look forward to working 
with Japan and with this committee and Congress as these 
negotiations get underway.
    Let me now turn my attention briefly to our broader 
security partnership with Japan on the global stage. Despite 
its constitutional limitations, Japan is playing an ever 
greater role and shouldering ever greater responsibility in 
addressing regional and global security challenges. Japan's 
maritime self-defense forces remain active in counter-piracy 
operations off the Horn of Africa, an operation that has 
contributed to regional security and the freedom of global 
commerce.
    Japan is also sending its defense force into more areas 
than ever before for humanitarian assistance and disaster 
relief missions, most recently a deployment of 350 ground self-
defense force personnel to Haiti to assist in reconstruction 
efforts there, and has been noted, Japan is also the second 
largest contributor of reconstruction and stabilization efforts 
in Afghanistan and in Pakistan, having pledged some $6 billion 
to these efforts.
    We remain grateful to Japan for its leadership in these 
efforts in the region and globally, and look forward to 
continued partnership with our Japanese ally in addressing 
these and other global challenges.
    Closer to home, the Democratic Party of Japan since they 
have come into power have sought to strengthen Japan's ties 
with other countries in the region. We welcome these 
initiatives. In particular, United States, Japan and the 
Republic of Korea share values, interests, and a common view on 
the dangers posed by North Korea's missile and nuclear weapons 
development programs, and we have worked together to deepen 
these ties through the Defense Trilateral Talks.
    A strong U.S.-Japan alliance is also critical to the 
success of the multilateral security cooperation in the region, 
and we are committed to working with Japan to assure that 
Asia's evolving multilateral organizations are inclusive, 
transparent, and solution-oriented.
    As equal partners, Japan and the United States share a 
commitment to regional and global peace, security and 
stability. As President Obama said in Tokyo last year, the 50th 
anniversary of United States-Japan alliance represents an 
important opportunity to step back and reflect on what we have 
achieved, celebrate our friendship, but also find ways to renew 
this alliance to refresh it for the twenty-first century.
    We look forward to the next 50 years of an alliance that 
will continue to be indispensable to the peace and prosperity 
of the United States, of Japan, and of the entire Asia-Pacific 
region, and we look forward to working with you, Mr. Chairman, 
and the committee as we chart a way forward. Thank you and I 
look forward to your questions.
    [The prepared statement of Mr. Schiffer 
follows:]<greek-l>Michael Schiffer deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Faleomavaega. Thank you, Secretary Schiffer.
    The gentlelady from California for her questions.
    Ms. Watson. First, Mr. Donovan, in your testimony you 
mentioned the need to expand trade and invest between the 
United States and Japan, and you also mentioned that the 
Department of State is urging Japan to make meaningful market 
access commitments in the Doha development round negotiations, 
and to further open the Japanese market to American beef.
    Can you expand on Japan's position in the Doha development 
round negotiations, and what are the Japanese main concerns? 
Now, I know what happened up in South Korea around beef, but 
can you explain what happened in Japan, please?
    Mr. Donovan. Dr. Watson, I believe the Japanese concerns 
revolve around the treatment of services and also agricultural 
products.
    With regard to the beef issue, this has been an issue that 
I was involve very heavily on for my 3 years, my most recent 3 
years in Tokyo, and we continue to urge Japan to adopt a 
scientifically-based approach to the issue and one based on 
international standards, and we are confident that if Japan was 
to do that its market would be reopened to what I regard as not 
only safe and delicious but inexpensive American beef of all 
qualities, and we are going to continue to do that. As part of 
that effort we have worked very closely with the Meat Export 
Federation as well to expand Japan's market.
    Ms. Watson. I remember back in, I guess, mid-late nineties 
they were concerned about our fruits, particularly strawberries 
and so on, and they found that by the time they got to their 
shores they had all kinds of varmints in them, and they were 
very strict. Has our exporting of this fruit gotten any better 
and have they relaxed their restrictions on--this is 
specifically from California? Strawberries were the concern 
back them.
    Mr. Donovan. I believe Japan still takes a very, very 
strict approach to its agricultural inspection activities, and 
this is one area where our Department of Agriculture, 
particularly in Tokyo, works very, very closely with Japanese 
officials. Japan is worried about not only insecticides but 
also other residuals on American fruit,
    One of the things that Japan does if they find a shipment 
that is in question, they have a tendency to close down at 
least temporarily all shipments from that particular area, and 
this is something that we continue to work with Japan on, to 
open up the market more for U.S. fruits.
    Ms. Watson. Thank you. With respect to trade and the recent 
Toyota recalls, will Japan's Diet play a role in reassuring 
American consumers' concern about Japanese autos and what 
legislative action might they consider?
    Mr. Donovan. As I look at the Toyota issue, the chairman 
mentioned it in his remarks, this is essentially a safety 
issues and I understand our Department of Transportation is 
playing a leading role in this. I don't anticipate that this 
will be an issue in our foreign relations with Japan.
    Ms. Watson. It won't rise to that level.
    Mr. Donovan. But certainly it is a safety issue that we 
will be dealing with here in the United States.
    Ms. Watson. All right, Mr. Schiffer, much of the discussion 
around Japan's newly elected government has focused on the 
relocation of the Futenma base, and the relocation is proposed 
by the locals and thus is a politically-sensitive issue, and in 
your testimony you mention that the relocation of this base is 
just one part of a broader realignment process.
    Is there room for United States to compromise to make it 
politically easier for the Democratic Party of Japan to agree 
to relocate that base?
    Mr. Schiffer. Well, we have been consulting closely ever 
since the new government in Japan was reelected on the Futenma 
relocation issue. As was discussed earlier, Prime Minister 
Hatoyama has publicly reaffirmed that his government will make 
a decision by the end of May based on a thorough review of the 
options, and that process internal to the Japanese Government 
is now underway, and we very much respect Japan's right to 
conduct that review.
    There has been no change, in our view, that the realignment 
road map remains the best plan for reducing the impact on 
Okinawa while maintaining our alliances capabilities. We are 
awaiting the outcome of the process that the Japanese 
Government has undertaken with the three ruling parties to 
conduct its review of the plan to relocate the Futenma Marine 
Air Station. We have seen reports in the media, as I am sure 
you have as well, on any number of alternatives and a great 
deal of discussion about different options in addition to the 
current Futenma plan.
    We are awaiting the Government of Japan to come to us with 
any conclusions that they reach in their review and to present 
any options and alternatives on the table that they think are 
viable, and when they do so we will certainly continue to 
discuss with them what we think the best way to go forward is.
    Ms. Watson. Do we still have white beach and I know Kadina 
is a pretty large air base way back in prehistoric times. I 
want to know have we reduced the number of forces that we have 
throughout the island? What about the bases we had way up in 
the north and southern part of the island? Naha is a big city 
now, but there were a few bases around there. Have we shifted 
those around and reduced the size?
    Mr. Schiffer. Well, part of the goal for the realignment 
road map overall is to be able to come up with a lighter base 
footprint both in Okinawa and throughout Japan so that we can 
adopt to the new situation and the new environment that we find 
ourselves in. It is a major challenge for us and for the people 
of Okinawa that we have such heavy population densities in the 
southern part of the island where many of our bases are 
located, and that was the starting premise of this process when 
we started to try to work through these issues with the 
Japanese Government 10-15 years ago, was the need to figure out 
ways in which we could relocate bases so that we would have a 
more sustainable presence on Okinawa.
    Ms. Watson. This will be my last question, Mr. Chairman, if 
you will allow me the time.
    The Riukin Islands themselves, has there been any 
consideration because I did hear mention that it was a matter 
of really being able to grow rice and so on? Were any of the 
outer islands ever considered for agriculture purposes, to 
expand to those? I mean, Japan to expand to those islands for 
agricultural purposes?
    Mr. Schiffer. You know, I am not familiar if it was, but we 
will be happy to get back to you.
    Ms. Watson. Well, you know, I understand there are over 600 
of those islands, but I don't know if any of them are large 
enough for agricultural purposes, but I was just curious about 
that in terms of relocation.
    Thank you, Mr. Chairman. I yield back.
    Mr. Faleomavaega. I thank the gentlelady. The gentleman 
from California, Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you, Mr. Chairman. Just to follow up 
on the questions that preceded me.
    How many troops are there or how many American personnel 
are now in Japan, and what is our eventual goal through the 
efforts that you are making right now?
    Mr. Schiffer. Well, our eventual goal is the goal that we 
have right now, which is to assure that we have the 
capabilities in Japan and in the alliance to be able to, first 
and foremost, extend credible deterrent capabilities throughout 
the region.
    Mr. Rohrabacher. And how many people have you determined 
are necessary for that?
    Mr. Schiffer. Well, in part, it is, and I have to be 
evasive here, but in part it is a question of a very dynamic 
and evolving security environment as you yourself noted.
    Mr. Rohrabacher. We don't have a goal in mind?
    Mr. Schiffer. And this is one of the reasons why we want to 
be able to continue with our shift to Guam.
    Mr. Rohrabacher. Let me suggest that if you are not able to 
tell the United States Congress what your goal is, then you 
shouldn't be in negotiations with a foreign country, and the 
bottom line is you should let us know what that is. You are 
obviously not willing to say.
    How many marines would be left in Okinawa? We are taking 
out 8,000. How many marines are going to be left there?
    Mr. Schiffer. There will be approximately 8,000 marines 
that will be left in Okinawa.
    Mr. Rohrabacher. Okay, so that is about 50 percent. The 
other 8,000 are going to Guam.
    Either one of the witnesses, do you believe that Japan 
should feel threatened by this massive or this incredible rise 
in both strength and wealth of mainland China?
    Mr. Donovan. Yes, sir. First of all, we have welcomed 
Japan's efforts to improve its relations with all its 
neighbors, and we are very confident that this will not come at 
the expense of our own relations or our own interests. Japan 
has taken some steps in increased frequency of its contacts 
with China. Japan has a major trading relationship with China 
has well.
    Mr. Rohrabacher. So is your answer no or yes?
    Mr. Donovan. My answer is no.
    Mr. Rohrabacher. Is what?
    Mr. Donovan. No.
    Mr. Rohrabacher. So Japan is not being threatened by this 
expansion of China's military and its massive increase in 
financial power that we have seen in the last decade.
    How about you, do you think Japan should feel a little 
threatened by that or if we just--All American troops are 
leaving, China is ever becoming ever stronger, Japan should 
never worry about that?
    Mr. Schiffer. Well, I thin clearly the rise of China is one 
of the great challenges that the world faces in the twenty-
first century, and what kind of China we see emerge as a player 
on the global stage is obviously going to be one of the most 
important strategic facts that will determine what sort of 
century----
    Mr. Rohrabacher. Right.
    Mr. Schiffer [continuing]. Our children and grandchildren 
will live with.
    Mr. Rohrabacher. So you would rather use the word 
``challenge'' rather than ``threat''?
    Mr. Schiffer. Well, I think that it is extraordinarily 
unclear right now what sort of China is ultimately going to 
merge on the world stage. We are extraordinarily cognizant and 
we pay very close attention, as you know, to China's military 
modernization programs, and there are areas that we consider to 
be of great concern when it comes to anti-access and area 
denial and----
    Mr. Rohrabacher. So the administration is unwilling to 
suggest that Japan even has to worry about an increased threat, 
it is an increased challenge, or there is a challenge there. 
You don't think it is a threat that the Chinese--you don't 
think it is a threat to Japan that the Chinese are claiming 
that it is part of their territorial waters way out in the 
Chinese Sea?
    Mr. Schiffer. I think we have made it very, very clear to 
China that we have different views on the international 
maritime law and their territorial claims.
    Mr. Rohrabacher. Okay. Well, you are not willing to do it 
but I will and say this. Japan better pay attention. There is a 
threat that is emerging and as long as they have been close to 
the United States they haven't had to worry about it. Japan has 
to worry about an ever-more powerful China that is being 
controlled by a dictatorship. If they are willing to oppress 
their own people and commit violations of the rights of their 
own people, Japan has to understand they are not going to worry 
about the rights of Japanese people.
    Do you see that China has played any role in, for example, 
the development of missiles in Korean? Didn't the Koreans get--
North Korea, get any of their technology from China?
    Mr. Schiffer. I wouldn't claim to be expertise on the 
genealogy of all of the North Korean----
    Mr. Rohrabacher. Mr. Donovan, how about you, is it your 
understanding that China may have played some role in the 
development of North Korean missiles?
    Mr. Donovan. I am sorry, sir. I don't have any information 
on that.
    Mr. Rohrabacher. Okay. Well, if we are trying to assess, 
you know, a relationship with Japan, we have got to make sure 
that we are able to understand what Japan's challenges are and 
what their threats are, and maybe it would behoove us, 
especially when we are trying to negotiate what type of 
military relationship we are going to have, it might be 
important for us to fully appreciate what the emergence of a 
strong and powerful China is going to have in that part of the 
world, and yes, perhaps the entire world.
    Mr. Chairman, thank you very much for your leadership and 
to directing your attention here. This is a great challenge. 
You don't want to use the word ``threat,'' but I will, there is 
a great threat there to both Japan and the United States. Let 
us not take for granted this relationship that we have had that 
has preserved the peace all of these years because if we take 
it for granted at a time when China, this dictatorship in China 
is emerging, we will all pay a dear price for taking these 
things for granted. Thank you very much, Mr. Chairman.
    Mr. Faleomavaega. I thank the gentleman from California. 
The gentleman from New Jersey for his questions.
    Mr. Smith. Thank you very much, Mr. Faleomavaega, and I 
appreciate you letting me sit on your panel, and I thank my 
friend.
    Mr. Chairman, as you know the United States has had a long 
and important relationship with the Japanese on many levels, 
and both of your distinguished witnesses have pointed it out in 
their testimonies today.
    I was disturbed, however, not to hear either of you mention 
one of the most pressing issues confronting our bilateral 
relationship with Japan and that is international child 
abduction. The State Department and your office, Mr. Donovan, 
has been contacted by scores of left behind parents. It is 
difficult to get an exact count as to how many children have 
disappeared into Japan, but I am told by State Department 
records show well over 100 American children are currently 
being held in Japan and have been deprived of love and the 
protection of their American parent.
    Sadly, in the last half century Japan has never once issued 
and enforced a legal decision to return a single abducted child 
to the United States. Left behind dads like Patrick Braden, 
whose daughter Melissa was abducted in 2006 by her mother to 
Japan, in violation of a Los Angeles Superior Court order 
giving both parents access to the child, and prohibiting 
international travel with the child by either parent, has been 
denied any contact with his daughter.
    I would note parenthetically last year I joined Patrick 
Braden and a group of other left behind parents in a very 
silent but dignified protest over at the Japanese Embassy. It 
happened to be Melissa's birthday. They brought a birthday 
cake. We sang happy birthday to her, knowing that halfway 
around the world she had no clue that her father was there 
grieving outside the Embassy of Japan. He is worried sick as 
well as he believed that they are residing within abusive 
grandparent, whose abuse has been documented in the court in 
Los Angeles.
    So many other left behind parents, mothers and dads, have 
contacted my office and wandered the halls of this Congress 
asking for government help in what has become a diplomatic 
issue.
    I know Japan has been a recipient of at least two demarches 
from the G-7 nations on international child abductions. Prime 
Minister Hatoyama himself mentioned before his election that 
child abductions must be resolved, and I understand that as of 
December 2009, the Ministry of Foreign Affairs created a new 
parental rights of children office staffed by nine officials in 
charge of Europe and America, and hopefully that will yield 
some results in the coming weeks and months.
    We also know, and I would ask you if you would answer this, 
what have we done in every forum, in every contact with our 
Japanese interlocutors to raise the issue of abducted children? 
I mean, this is kidnapping and unfortunately, unless this 
becomes a government-to-government issue, people like Patrick 
Braden cannot fight City Hall, just like David Goldman was up 
against a goliath in Brazil 5 years and counting for him until 
he finally got his beloved Sean back--and they are now back in 
New Jersey and doing quite well.
    I understand that there is talk of signing the Hague 
Convention, but as you know, Mr. Donovan, that would do nothing 
apparently for those people who have already abducted those 
children and those left behind parents.
    Secondly, to Mr. Schiffer, the international movements of 
our servicemen and women make them especially vulnerable to the 
risks of international child abduction. Attorneys familiar with 
this phenomena estimate that there are approximately 25 to 30 
new cases of international child abductions affecting our 
servicemen and women every year.
    I am personally acquainted with a few of those victims as 
well. One victim, Commander Paul Tolland, had his infant 
daughter abducted by his estranged wife from our military base 
in Yokohama, Japan, 6 years ago. He claims, and there is no 
reason not to doubt this, he got very poor advice from the JAG 
which led to a disastrous outcome in the court. His ex-wife 
committed suicide well over a year ago, and he still can't get 
his daughter back from the grandmother.
    Another victim, Michael Elias, a marine, is waiting for his 
two children, Jade and Michael, to return to him from Japan. He 
met his Japanese wife while stationed in Japan. They later 
married in United States where both of his children were born. 
At the end of 2008, his wife abducted their two young children 
from U.S. soil to Japan in contravention of U.S. court orders 
and the surrender of the children's passports.
    Finally, last year I sponsored an amendment to the 
Department of Defense Reauthorization, which was signed into 
law last year, that requires the department to report to 
Congress by the end of next month, 180 days from October 28, on 
the number of intra-familial child abductions affecting our 
service members in the last several years, as well as what the 
Department of Defense is doing to assist those service members 
who have suffered an abduction. The report also covers 
preventative actions taken by the department to stop these 
child abductions from happening in the first place.
    So Mr. Schiffer, if I could ask you, would you tell us what 
the Department of Defense is doing now on child abduction cases 
when the left behind parent happens to be a service member, and 
will the report be delivered on time, and are there any 
preliminary indications as to what the report has found that 
you can share us this afternoon?
    Mr. Faleomavaega. If the gentleman would yield to add onto 
your question and statement. I am curious about Japanese 
citizens who are being abducted by the North Koreans. So the 
feeling can be the same in terms of what they do to our 
children. But when their citizens are involved, how is the 
feeling? It is very emotional, and I think they have taken this 
issue to the highest levels. Even being at the Six-Party Talks, 
this issue was raised. I just wanted to add that onto the 
gentleman's question to both of you.
    Mr. Donovan. Thank you. I agree with you that this is a 
very important issue that we need to deal with. We have been 
approaching this on two fronts. The first front, as you 
mentioned, is in urging the Government of Japan to sign the 
Hague Convention on International Parental Child Abduction, and 
Secretary Clinton has raised this in her meetings. Assistant 
Secretary Campbell has raised it, and Assistant Secretary 
Janice Jacobs has raised this in her meetings, as well as 
Ambassador Roos and others, including myself, in visits to 
Japan, and we are going to continue to press Japan to sign up 
to the Hague Convention. That is the first part of it.
    On the second front, though, as you mentioned, what about 
the parents, the left behind parents today, what are we doing 
about them?
    We are approaching this on several fronts. First of all, we 
asked the U.S. Embassy or Consulate where we believe the 
children are located to attempt to conduct a welfare and 
whereabouts visit with their children and report back to the 
left behind parents on their welfare. However, unfortunately, a 
welfare visit can only take place with permission of the other 
parent.
    We also cooperate with the Office of Children's Issues and 
works very closely with law enforcement, including the FBI, 
Interpol, International Center for Missing and Exploited 
Children. We often reach out to these offices to ensure that 
they understand the unique circumstances of international 
parental child abduction and the steps they can take to assist 
left behind parents and add leverage to their cases.
    I might add that recently the State Department has held a 
series of town hall style meetings for left behind parents here 
in Washington, DC. These gatherings provide a small group of 
left behind parents with the opportunity to discuss 
international parental child abduction in Japan, and to receive 
updated information on our efforts.
    Finally, the embassy in Tokyo has been regularly meeting 
with left behind parents who aren't able to have access to 
their children in Tokyo and Japan as well, and we are going to 
continue these efforts.
    Mr. Schiffer. Sure. I would just note for our part that 
more vulnerable or less vulnerable, even one case of a 
serviceman facing this sort of tragic incident is too many.
    As Mr. Donovan noted, we are committed to working with the 
Government of Japan to address this issue, and the department 
is likewise committed to ensuring that the service members who 
face these tragic circumstances have the support that they 
need.
    As far as the report, I will have to check what its status 
is. As you know, we make every effort to be timely in our 
responses to Congress, but I am not sure exactly where that 
report or any preliminary findings may stand, but we will get 
back to you on that.
    [The information referred to follows:]
 Written Response Received from Mr. Michael Schiffer to Question Asked 
        During the Hearing by the Honorable Christopher H. Smith
    We anticipate that the report will come out in late May, at which 
time it will be released in full. There are no preliminary findings.

    Mr. Smith. If I could, Mr. Chairman. I do hope the report 
is as comprehensive as it was intended by me and others who 
backed it, and I also hope that there will be a very proactive 
response because we do believe that this is an issue that 
absolutely needs attending to in an aggressive way. There is 
just too many--I mean, I have met some of these individuals 
now, and the agony that they face, including some of the 
members that I know and friends who are worried about an 
abusive situation, they have nightmares at night wondering what 
is happening to their little girl while they are halfway around 
the world.
    If you could, Mr. Donovan, you mentioned that these issues 
have been raised. What has been the response from our Japanese 
interlocutors?
    And secondly, on the welfare and whereabouts visits, do you 
have a breakdown as to how many of those have succeed and how 
many of the parents in Japan have blocked such a visit?
    Mr. Donovan. With regard to your first point, I believe the 
Japanese Government has stated that they are considering 
signing up to the Hague Convention but no more than that.
    With regard to your second question, I don't have 
statistics. I am aware of my time in Tokyo where at least one 
or two of these occurred, but I would say the vast majority of 
these are declined.
    Mr. Smith. If you could, if it is possible----
    Mr. Schiffer. Sure.
    Mr. Smith [continuing]. Either get some kind of really 
clear accounting on that because it would be really helpful to 
know. In some countries where we have a miserable record of 
returning those abducted children our embassy personnel at 
least have had the ability, as in David Goldman's and Sean 
Goldman's case where the counselor personnel were able to do at 
least welfare and whereabouts checks, which at least bring some 
reassurance, and maybe a chilling effect on any abuse or other 
kind of moving around the country or perhaps even leaving the 
country.
    Again, when our officials, including Secretary Clinton, 
meet with the Japanese, yes, if they sign the Hague Convention, 
that is a first step, but that is all it is because as we know 
many countries certainly do not adhere even after signing on, 
or even after a MOU with ourselves, but what have they--have 
they raised specific cases like here is Patrick Braden, here is 
the situation, here are, you know, some of the others that I 
mentioned including Michael Elias and Commander Tolland? Do 
they raise those names and other names because the human rights 
laws--and as you know I have been doing this for 30 years, I 
wrote the Trafficking Victims Protection Act--unless you are 
specific very often everyone deals in generalities, and 
everybody is with you until they are against you on individual 
cases. Do they raise the cases?
    Mr. Schiffer. I believe that they have but I will have to 
get back to you on that.
    Mr. Smith. Could you please for the record so we know 
clearly? And if not, I would hope that would change and names 
would be tendered each time with the background because that 
does make a difference because these are American parents whose 
human rights are being grossly violated.
    [The information referred to follows:]

 Written Response Received from Mr. Joseph R. Donovan, Jr. to Question 
     Asked During the Hearing by the Honorable Christopher H. Smith

    Due to the sensitivity of the information and our effort to protect 
the privacy of American citizens, the State Department will submit this 
information under separate cover.

    Mr. Smith. Finally, and with your indulgence, Mr. Chairman, 
I have introduced legislation called the International Child 
Abduction Prevention Act which closely parallels legislation 
that Frank Wolf and I did in 1998 called The International 
Religious Freedom Act. I held all the hearings on that. Sadly 
the State Department was dead set against it until it was law, 
and then came around, and I think IRFA has been a model of 
trying to promote religious freedom and to mitigate 
persecution, and the same goes for the Trafficking Victims 
Protection Act, of which I was the prime sponsor. It took 2 
years to get it enacted into law, and that legislation also was 
opposed. It was welcomed in theory, in concept, but bitterly 
opposed because we named names and we had specific penalties 
for those countries that engage in, as we call it, Tier 1, Tier 
2 or Tier 3 egregious abuses.
    So this bill is patterned very closely after those two 
bills. It takes the ambassador-at-large concept. It says a 
special office would be dedicated, working, God willing, 24/7 
to resolve these child abduction cases, and thirdly, would take 
the exact penalties prescribe under IRFA and apply it to those 
countries that are showing a ``pattern of noncooperation,'' a 
term of art that we put into the bill, for child abduction 
cases. With 2,800 of our children abducted, kidnapped and, you 
know, about 1,800 or 1,900 parents, of course sibling groups 
sometimes get abducted, it seems to me the time has come for 
that legislation. I would hope, you might want to speak to it 
now, but I would hope the administration would look at that 
bill and support it and earnestly embrace it.
    You know, working on human rights, and Mr. Faleomavaega and 
I, when I sat there and he was over here, we always worked the 
human rights issues. Without some kind of penalty phase--our 
own civil rights laws are testimony to that as well--without a 
penalty phase we will get agreement in concept every day of the 
week, but not in actual enforcement, and I think it would give 
as many additional tools to the Department of State and Defense 
to effectuate the release of our abducted children.
    So with respect, I ask you to take a good look at it and I 
hope you can support it.
    Mr. Faleomavaega. I thank the gentleman for his 
participation. As I have said, I want to note for the record if 
there is anyone that I would like to commend and thank as our 
advocate, our champion as far as human rights are concerned, it 
is my good friend, the gentleman from New Jersey. And you 
deserve that commendation, Mr. Smith.
    I have got a couple of questions if I may. You know, at the 
height of the campaign between the Liberal Democratic Party and 
the Democratic Party of Japan the media was somewhat in a 
frenzy because there was concern that the Hatoyama 
administration is going to turn almost a 180-degree turnaround 
from what has been the practicing policy of the Liberal 
Democratic Party for the past 50 years.
    Of course, Prime Minister Hatoyama has restated basically 
the fundamental policy, which is as far as our security 
alliance is concerned between Japan and the United States, it 
is in no way undermined by this new administration.
    However, I note with interest, and correct me, Secretary 
Donovan, that there seems to be a tremendous interest on the 
part of the new administration in Japan to reach out to other 
Asian countries, particularly China. And I was wondering if 
perhaps the new interest demonstrated by Prime Minister 
Hatoyama and his administration was due to the fact that it is 
no longer relying just on the United States for its interests. 
And I was wondering if there is any truth in media reports that 
Japan is turning a new leaf, it is a new administration, and it 
is not going to play ball with the United States, and that it 
wants to play ball with all the other countries in Asia, 
especially China. Can you comment on that?
    Mr. Donovan. Yes, thank you, Mr. Chairman.
    As I said previously, United States welcomes Japan's 
efforts to improve its relations with all of its neighbors. We 
think that this is a very good thing, and we are very confident 
that this will not come at the expense of our own relations 
with Japan or our own interests.
    In addition to that, I would call your attention to several 
statements the Japanese officials have made about the 
importance that they attach to our alliance. At the time of the 
signing of the Mutual Security Treaty, the anniversary on 
January 19th, Prime Minister Hatoyama made a very strong 
statement in support of our alliance and the value that he 
places on it. Likewise, Foreign Minister Okada has also said 
that he attaches great importance to the alliance as we do. For 
us, of course, it is the cornerstone of our entire engagement, 
and I think that we are very reassured by the statements that 
they have made about the importance that they attach to the 
relationship.
    Mr. Faleomavaega. If the media reports were accurate 
concerning Secretary Gate's initial visit to Japan, somewhat 
badgering the Japanese Government leaders about executing or 
implementing the provisions of the 2006 realignment agreement 
that was made by the previous administration, by the Liberal 
Democratic Party, is that still in place in terms of our 
demanding that Japan honor this commitment or this agreement 
that was signed in 2006?
    Mr. Schiffer. It is still our position that the best way 
forward on this set of issues and the realignment road map is 
to implement the realignment road map. It was negotiated, as 
you pointed out, by the previous administration in Japan and 
also by the previous administration in the United States.
    When the Obama administration came into office, we reviewed 
the Guam International Agreement, and concluded that the 
agreement, the logic of the realignment road map was sound, and 
that is why Secretary Clinton signed the Guam International 
Agreement and made that part of her first trip to Asia. We were 
hopeful that the new government in Japan would also come to 
understand the logic of the Guam International Agreement, but 
they have, as you know and as we have discussed previously, 
started a process where they are reviewing that agreement, 
reviewing different options for the Futenma Replacement 
Facility, and we await the decision that the Government of 
Japan may choose to arrive at the options and alternatives that 
they may put on the table.
    Mr. Faleomavaega. Let us discuss the broader perspective. 
When you talk about realignment, this goes back to Bush 41 
about all our military forces around the world. You know, World 
War II is over, the cold war is over, we still have 50,000 
soldiers in Germany, I believe. Correct me if I am wrong on 
that, and currently we have 48,000 military in Japan alone, and 
then 27,000 in Korea, and then under the command of Admiral 
Willard, some 240,000 marines and sailors under the Pacific 
Command with some 200 ships.
    My point, I wanted to ask Secretary Schiffer, with all due 
respect to my good friend from California, about the threat 
that China is imposing. And I don't know if the media reports 
are accurate, to the effect that China actually is reducing its 
military budget, while on the contrary, we are increasing our 
military budget from $650 billion now to some $760 billion.
    And in addition to that, Secretary Schiffer, and please 
help me on this, we have a total of 737 military installations 
both in the United States and outside the United States. Is 
that true?
    Mr. Schiffer. I would have to get back to you on the exact 
number.
    [The information referred to follows:]

 Written Response Received from Mr. Michael Schiffer to Question Asked 
       During the Hearing by the Honorable Eni F.H. Faleomavaega

    On March 4, 2010, Beijing announced a 7.5 percent increase in its 
military budget to approximately $78.6 billion. This increase continues 
more than two decades of sustained annual increases in China's 
announced military budget. However, the Department of Defense estimates 
China's total military-related spending to be much higher ($150 billion 
in 2009 using 2009 prices and exchange rates). Estimating actual 
People's Liberation Army military expenditures is a difficult process 
due to the lack of accounting transparency and China's still incomplete 
transition from a command economy. Moreover, China's published military 
budget does not include major categories of expenditures. The United 
States and other countries have urged China to increase transparency in 
military spending.
    The Department operates 507 fixed installations in the U.S. and 
overseas.

    Mr. Faleomavaega. Can you please provide that for the 
record? I got this from my staff, and they better be right.
    Mr. Schiffer. I am sure they are.
    Mr. Faleomavaega. I was told we have 737 military 
installations both in the United States and around the world. 
And do you know how many military bases China has outside of 
China? Zero. Nada. So my question basically is about security 
interests that we are having here, which raises the next 
question about Okinawa. I have been to Okinawa. One-point-three 
million people live there in Okinawa, and it has become a very 
sensitive and volatile issue in Japan at this point in time.
    It seems that the Okinawans feel like they have always been 
the whipping boy for the last 50 years where we just put our 
military people there and not have to worry about it. Is it 
true that Okinawa is very, very strategically important to our 
national security interests?
    Mr. Schiffer. Yes.
    Mr. Faleomavaega. Why?
    Mr. Schiffer. The simple fact of the matter relates to what 
we consider to be the----
    Mr. Faleomavaega. Can you be a little louder?
    Mr. Schiffer. My apologies. The simple fact of the matter 
relates to what we consider to be the tyranny of distance. 
Okinawa provides us with a strategic location that allows us to 
take necessary actions for a range of scenarios. Forces that 
are based back in the constitution United States, or even in 
Hawaii, would take a much, much longer time to be able to 
arrive at a situation be it humanitarian assistance and natural 
disaster relief, or be it something more severe.
    Mr. Faleomavaega. I didn't mean to interrupt you there, 
Secretary Schiffer, but I think we have already proven during 
the tsunami in Aceh, Indonesia, we were able to mobilize 
quickly.
    Mr. Schiffer. And in part the response to that is from our 
marines in Okinawa.
    Mr. Faleomavaega. By having all these military when we are 
not at war, I was just trying to figure, it is costing us--for 
every 1,000 soldiers we put out there, we have to spend $1 
billion; 30,000 soldiers, that is over $30 billion; 68,000 
soldiers, that is $68 billion. That is a lot of money.
    In your honest opinion, Secretary Schiffer, why do we have 
to spend $760-some-billion for our defense?
    Mr. Schiffer. Well, just speaking about the Asia-Pacific 
region, as I said in my testimony it is my belief that regional 
peace, stability, and prosperity is underwritten by the forward 
deployed presence of U.S. forces in the region, and I think 
that there would be gravely destabilizing effects if we were to 
be precipitously pulling out.
    Mr. Faleomavaega. Some of the officials in Beijing were 
very concerned when we had proposed selling some $6.4 billion 
worth of military arms to Taiwan. I turn around and suggested 
to my friends in China, it is no big thing, but it is just 
somebody out there trying to make money, and I recall, I think 
the very thing that President Eisenhower has always given this 
warning in the 1950s about beware, the military industrial 
complex that we have in our country where the reason is not so 
much our defense or our security but it is so that these big 
military contractors, big companies that make tanks and bullets 
and guns. Let me ask you this, Mr. Schiffer: Are we the biggest 
exporter of military arms in the world right now?
    Mr. Schiffer. I would have to get back to you on exactly 
what the----
    [The information referred to follows:]

 Written Response Received from Mr. Michael Schiffer to Question Asked 
       During the Hearing by the Honorable Eni F.H. Faleomavaega

    According to the Conventional Arms to Developing Nations 2001-2008 
report, the U.S. ranked first for arms deliveries worldwide, with 
$12.232 billion in 2008.

    Mr. Faleomavaega. Can you? Can you provide that for the 
record? I am very curious. Please, I am not trying to suggest 
that I am against defense. Absolutely. I want to make 
absolutely certain that our security is firm. Can you provide 
the dollar value of the 48,000 soldiers that we currently have 
in Japan? How much is it costing us to have all this military 
hardware and soldiers and sailors and all of them being 
stationed in Japan?
    Mr. Schiffer. We can get back to the committee with those 
figures.
    [The information referred to follows:]
 Written Response Received from Mr. Michael Schiffer to Question Asked 
       During the Hearing by the Honorable Eni F.H. Faleomavaega
    It is difficult to produce the exact dollar value of maintaining 
the Marines in Japan due to a number of indeterminable factors that 
impact total cost. However, based on Fiscal Year 2009 data, the total 
approximated U.S. cost of maintaining the Marines in Japan is $1.4 
billion. This figure comprises operations and maintenance (O&M) costs, 
civilian pay, foreign national indirect hire pay, and military 
personnel costs. Military personnel costs include basic allowance for 
subsistence, cost of living allowance, basic allowance for housing, and 
overseas housing allowance (OHA).
    These figures represent the U.S. appropriated portion of these 
costs only and do not account for any other additional factors, beyond 
those listed above, that might impact the overall cost. They do not 
include investment costs in the Marine force structure stationed in 
Japan.

    Mr. Faleomavaega. Can you also provide the figure, the 
dollar figure of how much Japan is spending on its military 
defense? I understand it is in the top three in the world, but 
I may be wrong. Correct me if I am wrong on that.
    Mr. Schiffer. Well, part of the challenge here, and again I 
will get back to you with definitive figures, is that depending 
upon how you account for spending, different countries rank in 
different places. But as you know Japan spends less than 1 
percent of it GDP on its defense.
    [The information referred to follows:]

 Written Response Received from Mr. Michael Schiffer to Question Asked 
       During the Hearing by the Honorable Eni F.H. Faleomavaega

    According to the Japan Ministry of Defense ``Outline of Defense-
Related Expenditures FY 2010'' and ``Japan's Defense and Budget'' 
briefings given to U.S. diplomats earlier this year, Japan's 2010 
defense budget is $50.88 billion. This number does not include some 
items, such as realignment costs for U.S. forces, which are funded 
elsewhere.

    Mr. Faleomavaega. Well, I keep hearing that but I hear that 
that 1 percent happens to be also the top three in the world as 
far as actual dollar value and how much they spend on their 
bullets and guns and soldiers and sailors. So it may be 1 
percent out of what? Ten trillion dollar GDP? How much is 
Japan's GDP, by the way?
    Mr. Donovan. I don't have exact figure for you on that. 
Sorry. I will get back to you.
    [The information referred to follows:]

 Written Response Received from Mr. Michael Schiffer to Question Asked 
       During the Hearing by the Honorable Eni F.H. Faleomavaega

    It is difficult to produce the exact dollar value of maintaining 
the Marines abroad due to a number of indeterminable factors that 
impact total cost. However, based on Fiscal Year 2009 data, the total 
approximated U.S. cost of maintaining the Marines abroad, including 
Japan, is $4.3 billion. This figure comprises operations and 
maintenance (O&M) costs, civilian pay, foreign national indirect hire 
pay, and military personnel costs. Military personnel costs include 
basic allowance for subsistence, cost of living allowance, basic 
allowance for housing, and overseas housing allowance (OHA).
    These figures represent the U.S. appropriated portion of these 
costs only and do not account for any other additional factors, beyond 
those listed above, that might impact the overall cost.

    Mr. Faleomavaega. Well, right now we are at about $14 
trillion, our own GDP in our country, so I suspect that if 
Japan is number two--this is just one thing that I have nothing 
but highest praise and respect for the Japanese people. No 
natural resources, no oil, no minerals, and yet just by the 
sheer industry of its people currently now is the second most 
powerful economy in the world. That to me is a miracle, with 
only 120 million people living on those islands. I think you 
have to give credit to the Japanese people and their industry, 
how they were able to come up with such an economic miracle as 
far as other countries are concerned. And I think we played a 
very, very important part in building Japan's economy to where 
it is now.
    Gentlemen, if this thing with the Okinawa situation does 
not come through say after May, I realize I am being 
hypothetical about it, Secretary Schiffer, but do we have an 
option B in place if it doesn't come through?
    Mr. Schiffer. Well, the only thing that I can really tell 
you because I would prefer not to speculate on hypotheticals is 
that we are waiting for the Japanese Government to conclude its 
review and to come to the table with whatever proposals and 
ideas that they may have, and then we will sit down with them 
at that point in time and see what where we end up.
    Mr. Faleomavaega. I believe Japan is also one of the 
biggest investors in China. Secretary Donovan, are you aware of 
that?
    Mr. Donovan. Yes, it is.
    Mr. Faleomavaega. How much has Japan invested in China 
currently?
    Mr. Donovan. Mr. Chairman, I don't have the amount that 
Japan has invested in China. I do know, however, that Japan is 
a very large investor in the United States with about $259 
billion invested in the United States, which is about a third 
of their outward investment. Likewise, the United States has 
about--I think it is $79 billion invested in Japan too, so our 
investment total bilaterally are quite large.
    Mr. Faleomavaega. Well, I think I noted earlier not only 
are they a big exporter to our country, but they also hold some 
$769 billion of our debt, so we owe Japan $769 billion. China 
is not very far off with $755 billion and that is over $1.4 
trillion that we are in debt just to these two countries. Is 
that a good economic picture to feel comfortable with in terms 
of our economic security?
    Mr. Schiffer. With regard to Japan, I know that we have a 
surplus in terms of our service trade with them while I believe 
in 2008 it was about $16.8 billion, and this somewhat offset 
the goods trade deficit that we run with them which is about 
$44.8 billion.
    Last year I believe we exported about $51.2 billion in 
goods to Japan, and that figure is growing and our overall 
deficit, I believe, is slowly reducing; however, we need to do 
a better job on it.
    Mr. Faleomavaega. Well, I will say for the record I had the 
privilege of meeting with Prime Minister Hatoyama along with my 
colleagues, Congressman Honda from California, and also 
Congressman Gao, a Stanford graduate. I think that was his 
biggest mistake. He should have gone to UC Berkeley, where I 
graduated, but that is okay. I forgive him for that.
    Gentlemen, thank you for coming. Appreciate very much your 
participation. Do you have any closing statements you want to 
give?
    Mr. Donovan. No, sir. Thank you very much.
    Mr. Faleomavaega. Secretary Schiffer?
    Mr. Schiffer. No, sir. Thank you.
    Mr. Faleomavaega. All right, thank you.
    On our next panel we have two distinguished scholars, Dr. 
Sheila Smith and Dr. Michael Auslin to join us this afternoon.
    Dr. Smith is an expert on Japanese politics and foreign 
policy. She is currently a senior fellow for Japan studies at 
the Council of Foreign Relations, and Dr. Smith directed the 
Council of Foreign Relations Regional Security Architecture for 
the Asia Program. Dr. Smith is also from the East-West Center 
where in 2007 she specialized in Asia-Pacific international 
relations and U.S. policy towards Asia. She was also recently 
affiliated with Keio University in Tokyo where she researched 
and wrote on Japan's foreign policy toward China and the 
Northeast Asian region on an Abe Fellowship. She is a member of 
the faculty at Boston University and received her master's and 
doctorate from Columbia University in New York. She has written 
extensively and I am very, very happy to have her join us this 
afternoon.
    Also with us we have Dr. Michael Auslin, the director of 
Japan studies with the American Enterprise Institute. He was an 
associate professor of history, senior research fellow at the 
McMillan Center for International and Area Studies at Yale 
University before joining the American Enterprise Institute. 
Dr. Auslin graduated with a bachelor's in foreign service at 
Georgetown University, a master's at Indiana University and a 
doctorate at the University of Illinois.
    Thank you so much for your patience. I deeply appreciate 
your taking the time to come and share with us your sense of 
understanding of what is happening now in Japan and the current 
relationship existing between Japan and the United States.
    Dr. Smith, would you like to proceed?

 STATEMENT OF SHEILA A. SMITH, PH.D., SENIOR FELLOW FOR JAPAN 
             STUDIES, COUNCIL ON FOREIGN RELATIONS

    Ms. Smith. Chairman Faleomavaega, and other members of the 
committee, I am delighted to have the privilege to appear 
before you to discuss United States-Japan relationship.
    Japan's historic Lower House election last August is part 
of the ongoing structural shift in Japan's alternating party 
responsibility for governance. This shift in Japanese politics 
creates new questions for our alliance as well as new demands 
on policymakers responsible for our alliance management.
    The arrival of a viable second party on the electoral scene 
suggests that Japan's foreign policy will be subject to new 
types of scrutiny, and perhaps a significant challenge in the 
legislature. In short, we should expect that Japanese choices 
for the alliance will need to demonstrate greater salience 
domestically.
    This should not be cause for alarm, however. Good public 
policies should survive public scrutiny and legislative debate, 
and the opportunity to engage in Japanese public in our 
conversation over the future of the alliance agenda is welcome. 
For too long in the post-war years, Japan's citizens had little 
access to or understanding of the debates that shape government 
choices in the alliance with the United States. Moreover, 
opposition party resistance to a debate over national security 
made construction legislative oversight on policy difficult.
    Today, we live in a different era and the time for a more 
direct debate in Japan over its security choices and over the 
requirements of implementing alliance cooperation has come. 
Given the complexity and the scope of the security challenges 
we share with Japan today, we need a direct and informed 
conversation about where the United States and Japan can 
cooperate and perhaps where we cannot.
    On August 30, 2009, the Democratic Party of Japan won a 
fully majority in the Lower House election, ousting the Liberal 
Democratic Party (LDP) from a nearly half-century of dominance 
in Japanese politics. With 308 of the 480 seats in the Japanese 
Parliament the DPJ won a 4-year stint as Japan's ruling party, 
and is poised to implement its own electoral manifesto, which 
called for changing the governance practices in Japan.
    This summer's Upper House election will reveal how 
successful this first year of DPJ governance has been in the 
eyes of the Japanese people. But it is neither foreign policy 
nor even the relationship with the United States that most 
concerns Japanese voters. The Democratic Party of Japan 
campaigned primarily on a domestic policy agenda, including the 
need for wholesale reform of Japan's public finances and its 
social insurance infrastructure.
    Like the United States, Japan's political leaders are 
grappling with the consequence of the global economic downturn. 
The new government will be judged harshly if it cannot attend 
to the need to boost economic growth and relieve unemployment. 
From its first weeks in office, the Hatoyama Cabinet actively 
sought to articulate a new approach to Japan's foreign policy. 
The Prime Minister's first speech in public in fact was at the 
U.N. Climate Change Summit where he put forward a forceful 
statement on Japan's commitment to global efforts to reduce 
carbon emissions.
    Likewise, he spent another day in New York emphasizing his 
country's embrace of the goal of nuclear nonproliferation and 
disarmament. From there he traveled to the G-20 meeting to 
reiterate his government's support for the collective effort to 
stabilize the global economy. This is a government, in other 
words, that believes Japan's agenda is global.
    During the election campaign, the DPJ advocated an ``equal 
relationship'' with the United States and an emphasis on 
Japan's Asian diplomacy as a member of the East Asian 
Community. Yet the impression is that this government seeks to 
advance its Asian diplomacy at the expense of its bilateral 
alliance with the United States, and this sensitivity here in 
Washington has led to concerns over the longer term future of 
United States-Japan alliance.
    But this zero sum understanding of what motivates Japan's 
new government underestimates broader social and political 
currents in Northeast Asia. While building on the deep ties 
that come from a half-century of security cooperation with 
Japan, we must also be mindful of the need for new approaches 
to our alliance cooperation. We cannot afford to assume that 
our old habits of alliance management will continue to serve a 
changing Japan.
    Let me offer five significant opportunities ahead that if 
embraced could strengthen and focus our security cooperation 
with Japan.
    First and foremost, we must find an acceptable relocation 
facility for the U.S. Marine Corps and close Futenma Marine Air 
Station. Today the issue of Futenma relocation seems all 
consuming, and this has led many to assume that Japan's new 
government seeks to undermine our military cooperation. This 
is, I believe, a misreading of the sentiments both of the new 
government toward the alliance but also the Okinawan sentiments 
regarding the U.S. military presence there.
    The complexity and the difficulty of Futenma relocation has 
been with us for over a decade. Perhaps forgotten today in our 
focus on the DPJ is that our two governments in 1996 made a 
promise at the very highest levels to the people of Okinawa. In 
the aftermath of prefectural outrage of the rape of a 12-year-
old child, the United States and Japan moved quickly to reduce 
the footprint of U.S. forces on this small island. Closing 
Futenma was an integral part of this response, and the 
announcement by Prime Minister Hashimoto and the U.S. 
Ambassador Walter Mondale that this base would be closed met 
with broad Japanese approval.
    As we seek in these coming months to find a compromise 
solution, I urge our two governments to reflect on the promises 
made at a time of deep distress. We cannot continue to risk an 
accident where civilian lives could be at risk, but as 
importantly, we should not risk the credibility of our promises 
in the eyes of the Japanese public at a time when the value and 
the need for our alliance is so immense.
    No matter what the politics of the moment look like, United 
States and Japanese Governments both must remember that the 
integrity of United States-Japanese alliance will be judged not 
only on the potential to meet crises from within, but also on 
the capacity to fulfill promises to the citizens it claims to 
protect.
    Second, and more broadly, the two governments will also 
need to assess some of the oversight mechanism for managing the 
U.S. troop presence in Japan. The demand for greater 
transparency and accountability is part of any democratic 
nation's politics. Support for United States-Japan alliance 
remains strong in Japan, but it is the policy management 
practices of maintaining 40-some-thousand troops on the ground 
that needs adjustment.
    Japan's governors, for example, articulate the need for a 
better set of guidelines for managing the environment on and 
around U.S. military bases. A bilateral discussion on best 
basing practices could provide the opportunity to strengthen 
the relationship between U.S. commanders and local communities 
and satisfying the growing desire for greater government 
accountability that is part and parcel of Japanese democracy.
    Third, and equally important, Tokyo and Washington must 
review and reconfirm their understanding of the alliance's 
strategic goals and priorities. The current initiative begun by 
Secretary of State Clinton and Foreign Minister Okada at their 
meeting in January provides an excellent venue for exploring 
assumptions about contemporary security challenges. This would 
be a good moment to reflect on the strategic goals for United 
States-Japan alliance set forth in February 2005, and to update 
our common priorities for alliance cooperation.
    The Asia-Pacific region is changing quickly and our 
security cooperation must attend to these changes. Coupled with 
this expert review of our alliance agenda, we must also 
consider carefully the opportunity for President Obama to reach 
out to the Japanese public in November 2010. A new generation 
of Japanese is coming into positions of leadership, a 
generation that has a different understanding both of the past 
and of the current relationship with the United States. There 
is a new opportunity here and indeed a new need to revisit our 
shared histories and re-commit to a shared future.
    As we look forward, we should address our past, including 
an acknowledgement of the painful costs of World War II to both 
our countries. The President's second visit to Tokyo should be 
one where he spends time with the Japanese public explaining 
the importance of the treaty commitments but also highlighting 
the American commitment to crafting a common future for our two 
people.
    Fourth, to meet the growing demand for collective action in 
the Asia-Pacific region, United States and Japan must identify 
ways to strengthen multilateral security cooperation with a 
broad array of regional partners.
    In the past decade, we can see now challenges for 
governments and for the collective capacity of the countries of 
the region to cope with significant security challenges. United 
States, South Korea and Japan have intensified their 
cooperation on how to cope with the belligerence of North 
Korea, and this ought to be continued, including our 
collaboration of ballistic missile defense.
    Other opportunities can be found in working closely with 
Japan and other regional powers on building capacity for 
disaster relief and humanitarian assistance efforts. Our 
military's expertise has been amply demonstrated in the region 
but this can better be integrated into a standing regional 
capacity that can bring quicker and more focused response 
efforts.
    Finally, and perhaps the most critical task of 2010, we 
should work closely with the Japanese Government to articulate 
a common understanding of our respective strategies for global 
nuclear nonproliferation.
    Both Washington and Tokyo would benefit from the 
development of a U.S.-Japan action plan for supporting global 
nuclear nonproliferation efforts. As President Obama has noted, 
the goal of ridding the world of nuclear weapons may not be 
attained easily or soon, but the path to that goal requires the 
shared energies and technological superiority of our two 
societies.
    As the only country to have used nuclear weapons and the 
only country to have experienced their use, the United States 
and Japan together could offer a powerful partnership in the 
global effort to ensure our security against those who would 
proliferate and in mapping out a secure path to reducing our 
dependence on these weapons.
    In other words, the United States and Japan must integrate 
our nonproliferation goals with our force posture consultations 
so that the next decades of security cooperation between the 
United States and Japan reflect our shared vision for working 
toward a nuclear free world.
    Thank you, and I look forward to your questions.
    [The prepared statement of Ms. Smith 
follows:]<greek-l>Sheila Smith deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Faleomavaega. Thank you, Dr. Smith. Dr. Auslin.

STATEMENT OF MICHAEL AUSLIN, PH.D., DIRECTOR OF JAPAN STUDIES, 
               THE AMERICAN ENTERPRISE INSTITUTE

    Mr. Auslin. Mr. Chairman, thank you for inviting me to 
testify today on the state of U.S.-Japan relations.
    This past January Washington and Tokyo observed the 50th 
anniversary of United States-Japan alliance, one of the most 
successful bilateral agreements in recent history. Yet this 
time of celebration has been clouded by short-term political 
strain between Tokyo and Washington, and longer term concern 
over the strength of our transpacific relationship.
    The state of U.S.-Japan ties directly influences the larger 
strategic position of the United States in the Asia-Pacific 
region; hence, any substantive change in United States-Japan 
alliance or in the political relationship that undergirds it 
would present challenging questions for U.S. policymakers.
    We face today a new and unfamiliar situation in Japan, one 
which offers great opportunities, yet also engenders 
difficulties and anxieties. Last August Japanese voters ousted 
the Liberal Democratic Party after a half-century of nearly 
continuous power. The electoral victory of the Democratic Party 
of Japan was the reflection of trends that have been reshaping 
Japanese society for decades and leading to deep currents of 
unease. Yet the DPJ has found governing more difficult than 
electioneering, and has unexpectedly found itself in a tussle 
in Washington over 2006 agreement to move Marine Corps Air 
Station Futenma to a more remote location on Okinawa.
    The DPJ itself is an uneasy coalition of ideological 
opposites, from former socialists to pro-alliance realists, and 
Washington should be prepared for continuous debates within the 
DPJ in coming months over foreign and domestic policy as well 
as the likelihood of leadership changes in the party that may 
push it in different directions.
    I believe the doubts about Prime Minister Yukio Hatoyama's 
overall commitment to U.S.-Japan relations are overstated, but 
Mr. Hatoyama clearly sees a different future for United States-
Japan relationship than his predecessors did. We should take 
seriously his desire for Japan to pay a more expansive global 
role, craft a closer relationship with the nations of East 
Asia, and take a lead in birthing a new East Asian Community.
    Japan today is working through a daunting mounting of 
problems from economic reform to the continuing North Korean 
nuclear and missile threat, and the new government has yet to 
come up with concrete policies to deal with many of them. I 
would suggest, however, that the Hatoyama administration is 
following many previous LDP policies, including attempting to 
play a leading role on climate change issues, participating in 
Asian multilateral initiatives, and continuing its anti-piracy 
operations off the Horn of Africa.
    There is little in these policies that indicate a turning 
away from the United States, and indeed may portend greater 
cooperation with Washington on shared global issues. None of 
this, however, should come at the expense of the continued 
close security and political relations we share with Japan. 
Many have noted statements by Prime Minister Hatoyama about the 
decline of American power in the world in the rise of China as 
well as his criticisms of globalization and market-based 
economics.
    Fears that Mr. Hatoyama plans on drawing closer to China at 
the expense of the United States may worry some American 
observers, and I would share those concerns if in coming days 
indeed saw a downgrading of the working relationship between 
Tokyo and Washington, and any indication that Tokyo saw 
increasing benefit in moving closer to China on issues ranging 
from trade to security. Yet we must also respect the choices of 
a democratically-elected government and recognize that current 
trends and Japanese policymaking, including Japan's recent 
outreach to China, reflect a return to a more traditional 
Japanese position of attempting to maintain some level of 
balance in its foreign policy.
    Japanese opinion leaders and policymakers continue to worry 
that the United States will over time decrease its military 
presence in the Asia-Pacific and that Washington will consider 
China in coming decades as the indispensable partner for 
solving problems both regional and global.
    Despite such problems, United States-Japan alliance remains 
the keystone of U.S. policy in the Asia-Pacific region. America 
and Japan share certain core liberal values that tie us 
together and which should properly inform and inspire our 
policies abroad. Further, within the continued Japanese hosting 
of U.S. forces, our forward-based posture in the Western 
Pacific is untenable. Maintaining this presence is a full-time 
job for officials on both sides of the Pacific, and we will see 
continued, sometimes difficult negotiations on alliance issues 
in the years ahead.
    It is clear, however, that our friends and allies in the 
area are keenly attuned to our forward-based posture and any 
indications that the United States was reducing its presence 
might be interpreted by both friends and competitors as a 
weakening of our longstanding commitment to maintain stability 
in the Pacific. We should not underestimate the influence of 
our alliance with Japan on the plans and perceptions of other 
nations in the region.
    As we look to the kind of Asia that we hope develops in the 
future, the role of a democratic Japan should become 
increasingly important, and United States-Japan alliance, 
although under strain today and still in need of further 
restructuring, will be indispensable in ensuring our country's 
commitment to the Asia-Pacific and in providing a necessary 
stabilizing force to the powerful tides of nationalism, 
competition, and distrust in that region.
    Our relationship with Japan is indeed a cornerstone of the 
liberal international order that has marked the six decades 
since the end of World War II as among the most prosperous and 
generally peaceful in world history. For that reason, among 
others, we should look forward to maintaining it for years to 
come.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Auslin 
follows:]<greek-l>Michael Auslin deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Faleomavaega. Thank you, Dr. Auslin. Thank both of you 
for your most eloquent statements. Just wanted to ask a couple 
of questions.
    On your statement, Dr. Smith, you mentioned that with the 
whole advent of the campaign that took place between the 
Democratic Party of Japan and the Liberals, as you mentioned, 
the focus really was on the issues that were local and not 
foreign policy or international economics. And I suspect one of 
them was the economy and the other was corruption, and it was 
so astoundingly strong as a result of the campaign that took 
place.
    You had mentioned also something about Prime Minister 
Hatoyama's views concerning nonproliferation. What is your 
understanding of Japan's position on this? Either of you can 
comment on that.
    Ms. Smith. I would be delighted to, Mr. Chairman.
    I think, first of all, on the campaign, those of us who are 
Japanese politics watchers, we have been anticipating the 
election of last August for several years now, and so sooner or 
later this election was going to happen. The question was a 
question of timing. As we watched the campaign unfold it was 
very, very clear that the huge agenda that the DPJ wanted to 
challenge the LDP on was domestic, and in particular, as I am 
sure you are aware, Japan's aging society, the future fiscal 
burdens of that on the Japanese state, and how its policies 
differed from that of the Liberal Democrats in managing things 
like medical care, pensions, tax policies, et cetera.
    So there was very little, and we all looked to the 
manifestos put out by the DPJ, in fact there was very little on 
there about foreign policy, very cursory statements, as I 
alluded to in my testimony, but not a fully developed policy 
platform that we would expect from a leading contending party 
in an election.
    So I think many of us were holding our breath and waiting 
to see. There was some clarification in the summer before the 
election in August, but we still didn't understand what the 
language of ``equal relationship with Washington'' meant. We 
didn't understand what ``embracing East Asian Community'' 
meant, and I think the party is working out in its own mind 
some of the choices and pragmatic decisions it will have to 
make in accordance with that rhetoric as it has had to govern.
    On your second question about nonproliferation, I think 
Prime Minister Hatoyama's speech at the United Nation lays out 
very clearly some very long-held aspirations of the Japanese 
people, to be a force for nonproliferation, to work actively 
with other partners on the global stage through the MPT and in 
other venues to eliminate nuclear weapons. This has been a goal 
of the Japanese people throughout the half-century of the post-
war people, and I think they continue to feel strongly about 
this.
    We have two venues now in United States-Japan Alliance to 
work with Japan on this whole nonproliferation. One clearly is 
North Korea and the Six-Party Talks, there is another emerging, 
a conversation to be had in Iran, I believe, in the United 
Nations Security Council, and I think Japan's role in that 
conversation will be very, very important. So there is a place, 
I think, for the United States and Japan to overlap in terms of 
working toward a common goal.
    Mr. Faleomavaega. Which adds another question, and I will 
get to Dr. Auslin. How do you denuclearize a country like North 
Korea when it already has nuclear bombs? I mean, where we are 
constantly on Iran because Iran still has not yet developed a 
nuclear weapon, but North Korea already has. Is it something of 
a contradiction, Dr. Smith?
    Ms. Smith. No, and I am sure Dr. Auslin would like to jump 
in here. No, it is not. I think part of our challenge here is 
the instruments that we try to use to persuade Pyongyang. I am 
not sure at the moment whether the Six-Party venue and that 
persuasive context of regional diplomacy will yield results. 
Clearly, the Bush administration and then the Obama 
administration felt that the Six-Party regional framework was 
one particular place to work with other countries of north East 
Asia, but the reality is containment of the proliferation of 
North Korea is also on the agenda, and working with our allies, 
South Korea and Japan, has been a very important part of that 
aspect of trying to deal with North Korea.
    It is not denuclearization, it is containment at the stage 
that we are at right now.
    Mr. Faleomavaega. Well, I will have Dr. Auslin jump in just 
for a minute, but I have been following the nonproliferation 
issue for a number of years. I call it full of contradictions, 
somewhat hypocritical too in the fact that it is okay for the 
five permanent members of the Security Council to continue to 
hold onto thousands of nuclear weapons, but it is not okay for 
the rest of the world to have possession of nuclear bombs.
    India went outside of the basket, is it called a basket? 
Went outside of this idea that you are not supposed to have 
bombs, or they went ahead and exploded one in 1974, and then 
Pakistan followed, all this outside of the nonproliferation 
pressure from the United Nations and the five permanent 
members.
    Do you see any sense of imbalance here in how we advocate 
as members of the United Nations that we should do everything 
we can to get rid of nuclear weapons altogether and yet--and 
yet this is since 1974? I remember the Prime Minister of India, 
Rajiv Ghandi, made an appeal before the General Assembly of the 
United Nations saying, hey, look, we can explode one too, and 
then asked the United Nations, particularly the five permanent 
members, our country included, are we serious about getting rid 
of nuclear weapons all together, because we are willing to do 
it? Well, guess what? Total silence since 1974, and we are 
still faced with this problem of nuclear weapons.
    How serious are we really about nonproliferation? Because 
now, even in our own country, a tremendous debate going on 
about the validity of deterrence. We need to continue to have 
the bomb just in case. I think we should take on President 
Reagan's adage ``trust but verify.''
    Dr. Auslin, you must have all the answers to my questions.
    Mr. Auslin. Mr. Chairman, I think you have actually raised 
a key point in relation to Japan's own tensions within its 
policy, which is, as Dr. Smith indicated, the aspirational goal 
of a world without nuclear weapons and certainly before that to 
have a robust and effective nonproliferation regime.
    With what Japan and Japanese policymakers have long 
recognized is the reality of the U.S. nuclear umbrella that 
Japan understands the world that it lives in, the neighborhood 
that it lives in. Certainly it has watched with at least some 
alarm the growth over the past several decades of Chinese 
capabilities in medium- and long-range ballistic missiles and 
its nuclear forces.
    Japanese officials, I know, Mr. Chairman, as you are well 
aware, continually ask U.S. counterparts about the credibility 
of our nuclear umbrella, and so the attempt to square those two 
issues, how you can work for a world and hope for a world in 
which there are no nuclear weapons, but in the short term 
recognize that in some way your existence is tied to a credible 
deterrent is one that as of this point they have found no 
answer to.
    I think that Prime Minister Hatoyama is very sincere in his 
beliefs, but my own feeling on this is that in coming decades, 
as it seems certain that more countries around the world will 
get their hands on nuclear weapons as the nonproliferation 
regime breaks down, what you will probably see in Japan is the 
maintenance of this aspiration but a much more hard-hearted 
approach and realistic approach to working with the U.S. on 
maintaining a credible deterrent, and that, I think, was 
actually reflected in the secret agreements that we had back in 
the 1970s, in a very unstable period as well.
    Mr. Faleomavaega. Dr. Smith, you mentioned something about 
Okinawa. I have some questions about Okinawa, and I think it is 
going to become a very volatile issue in the coming months or 
weeks, depending which way the Hatoyama administration is going 
to turn on this issue.
    As I had asked Secretary Schiffer, suppose that Japan does 
decide that we are to leave Okinawa, and I mean not just 
continue having the other 8,000 marines, but just take our 
total military presence out of Okinawa. I know that is a 
hypothetical question, but suppose it does happen. Suppose that 
the 1.3 million people in Okinawa are sick and tired of having 
a military presence in their land, and the leaders themselves 
agree. Of course, that does raise a problem for Prime Minister 
Hatoyama. But what would this mean for us in terms of our 
options, and is that really going to compromise our own 
security if the Okinawa situation turns not so much to our 
expectations?
    Ms. Smith. Well, Mr. Chairman, it is a very important 
question, and I think we can go back for a bit of a prelude to 
1995 and the prefectual outrage at that point, I mentioned the 
rape of the child. It was a very intense opposition to the U.S. 
military presence. It was a very intense opposition to the 
management of that presence, particularly in Okinawa, to the 
Status of Forces Agreement, everything about the U.S. military 
presence in Okinawa was up for grabs.
    I think what both of our governments understood at that 
moment was that it needed the highest level of political 
attention. What pains me somewhat a decade or so later is that 
we have somehow lost the immediacy of the need to deal with the 
promises made to the Okinawa people.
    I don't believe right now in the prefecture there is 
antagonisms toward U.S. military or anti-Americanism per se, 
but I think there is an expectation that both of our 
governments will live up to the promise that was made such a 
long time ago.
    The question of the relocation of Futenma has been very, 
very focused on the relocation site, and what I wanted to 
remind the committee and others listening is there is another 
end of that, and that is to close this marine air station in a 
densely populated part of Okinawa. My understanding of the 
politics at the moment in Okinawa is that is also the 
sentiment. Futenma needs to be closed. A relocation site needs 
to be found.
    There are some difference in the prefecture about the 
acceptability of some of the options being put forward. I 
believe that Henacal, the current option that the U.S. 
Government feels is the best compromise solution may no longer 
be politically viable, but again I do think we have to watch 
the political process in Tokyo and Okinawa unfold somewhat 
before we can make a judgment.
    U.S. forces serve in host societies at the request of the 
government and the people of those societies. So to get back to 
your very original question, if the U.S. Marine Corps is asked 
to leave, the U.S. Marine Corps will need to leave, but I do 
not believe that this government in Tokyo or even the Okinawan 
people at this particular moment want all of the U.S. forces to 
leave. But I think we are in very difficult waters if we are 
not able to solve this problem effectively and with due 
attention to the sensitivities in Okinawa.
    Mr. Faleomavaega. And you can join in, Dr. Auslin. But I 
want to add the 48,000 presence of the military in Japan for 
the defense of Japan, and I was just wondering if this is 
somewhat a relic from World War II and the cold war. Do we 
still need 50,000 soldiers stations in Japan?
    This is an entirely new situation there, and I think 
Secretary Schiffer and I may have a little difference of 
opinion here about how quickly we were able to mobilize when we 
had that tsunami in Aceh, Indonesia. In a matter of hours we 
have capabilities in C-17s, and C-5s, in a matter of hours we 
can mobilize, but just the fact that 48,000 soldiers live 
there, is the issue really more economic than it is security or 
military?
    I mean the host country really is the beneficiary for us 
paying. Of course, there is burden sharing involved here with 
Japan. I don't know how it is in Germany, but I am still 
wondering if 50,000 soldiers in Japan are needed for the 
defense of Japan or whether 1 million soldiers in China. How do 
you defend Japan against a totally imbalanced view as far as--I 
am not a genius in military strategy and all of that, but can 
you help us on this, Dr. Auslin?
    Mr. Auslin. You have raised a number of important 
questions, Mr. Chairman. I would say first on the burden-
sharing issue, Japan does pay host nation support, something on 
the order of $3 billion a year, and as Secretary Schiffer's 
testimony pointed out, it is not to be seen in simply payment 
terms but as an investment in the overall nature of the 
relationship. So the cost that we do have by having our 48,000 
service members over there is offset to a large degree, I would 
say, by host nation support.
    But I think the questions that you raise, the strategic 
questions, are the truly important ones. Dr. Smith mentioned, 
going back to 1995, I would go back to 1990-91 I think it was 
when the Government of the Philippines asked us to close our 
bases there, both Clark and Subic, our naval and air bases. And 
so the first answer to your question, what would happen is I 
presume what happened----
    Mr. Faleomavaega. And you know the reasons why the 
Filipinos kicked us out of Subic Bay and Clark Air Force Base, 
right?
    Mr. Auslin. Well, some of what was reported I certainly 
know.
    Mr. Faleomavaega. Well, the reason was that as far as the 
Filipinos were concerned our presence in the Philippines wasn't 
to protect the Filipinos, it was to protect Japan. That was the 
debate in the Philippines Senate, and that was the reason why 
we were told to leave.
    Mr. Auslin. Well, I think the views in the Philippines have 
certainly evolved over the years, and in my understanding, and 
clearly we left at that point in time. So the first answer to 
your question is we would undoubtedly respect the wishes of the 
Government of Japan.
    The question is what happens after that. I think that is 
the easy part of this is leaving. What happens after that, and 
that is what you indicated. In the Philippines there are many 
voices today that talk about what type of expanded cooperation 
they can have with United States because the issue of the 
presence of U.S. forces is not merely, and I think you point 
out correctly, what can 48,000 troops do against 2.4 million 
Chinese troops, the issue is perception and the issue is the 
effect on the calculations of other actors.
    What we saw in Southeast Asia in that period was a steady 
increase in Chinese claims over territories and what came up 
earlier in this hearing, South China Sea areas, in the 
bilateral problems that nations in Southeast Asia had with each 
other once the United States was not there as a southern 
anchor, which is not to say we solved every problem, but it 
does change the geo-political calculation.
    So in answer to your question what would happen if we left 
Northeast Asia, the resolution of issues would fall solely upon 
the nations in the region who have an unfortunate and long 
history of distrust, of continued use of the history to 
obstruct future progress, and in which undoubtedly due to our 
general position we would be drawn back in anyway, but without 
the resources and the means to have the same level of 
effectiveness as we do if we are there in the region as we are 
now.
    Mr. Faleomavaega. And also the understanding if we do leave 
our presence out of Southeast Asia it will leave a vacuum, it 
will probably force Japan and China then to compete to an 
extent where all other Asian countries are going to be living 
in fear in terms of what exactly--who would you rather be 
partnership with than the United States if that be the case; at 
least that is what I understand as to why many Asian countries 
really would like to continue to have U.S. presence in the 
Asia-Pacific region.
    You heard earlier the comments made by Secretary Schiffer 
and Secretary Donovan. Nothing like having the foreign policy 
and the military both at one time so we can kind of get an idea 
what is going on.
    In both of your opinions, and understanding the situation 
in Japan, do you see any real serious breakdown or division 
between our two countries, between Japan and the United States?
    Ms. Smith. No, sir, I don't. But that being said I think 
how we manage the Futenma issue I think will set the tone of 
our relationship for years to come, and that is where I worry. 
I think the deep interests on both sides, both economic and 
security, and our common democracies won't ensure that we have 
a very strong partnership, but I think the way we handle the 
Futenma location issue I think has to respect the democratic 
process in Japan, and has to respect also our ability to work 
effectively with Japan on a broad range of security-related 
issues.
    Mr. Faleomavaega. Dr. Auslin?
    Mr. Auslin. I would second that, Mr. Chairman. The only 
thing I would add is my concern that if we do not handle it 
well, as Dr. Smith indicated, that it will be, I think, a 
natural result that certainly on our end we may choose to put 
this relationship somewhat on the back burner. The government 
and Secretary Schiffer and Donovan have other areas that they 
are concerned with. They have an enormous portfolio. Everyone 
in the government is overloaded with keeping up with their 
responsibilities, and to enter into a situation where you do 
not feel that the return on investment of time and effort is 
adequately repaid, despite the longstanding and remaining 
interests between the two countries as there are, nonetheless I 
think would potentially lead to a situation of benign neglect 
where we may just allow the relationship to settle down to a 
lower level of importance and ultimately we would be faced with 
other problems arising out of that, and that is the key concern 
that I have.
    Mr. Faleomavaega. Some of the members of our committee have 
expressed that concern, and if history serves as the basis of 
letting us know that that has happened a couple of times where 
we seem to have neglected Japan, not only input advice, or to 
counsel. The one thing I would say, that this administration is 
very, very strong in dealing with the Asia-Pacific region. At 
least we can say that this President--I always say he is the 
first President that at least knows where the Pacific Ocean is.
    But I will say to both of you I deeply appreciate your 
coming here to testify, and sincerely hope that we will have 
other occasions that we can do this. Thank you very much for 
both of you coming.
    Did you have any closing statements you would like to make?
    Mr. Auslin. No, sir.
    Ms. Smith. No, sir, other than to share with you the 
importance of the Asia-Pacific region for the United States and 
for us to continue working hard to understand the dynamics 
there. Thank you for having us.
    Mr. Faleomavaega. Thank you. The hearing is adjourned.
    [Whereupon at 4:53 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Minutes deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>C. Smith statement deg.

                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
